<html>
<title> - LAW ENFORCEMENT OFFICERS SAFETY ACT OF 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                       LAW ENFORCEMENT OFFICERS 
                           SAFETY ACT OF 2003

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                H.R. 218

                               __________

                             JUNE 15, 2004

                               __________

                             Serial No. 97

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-197                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

TOM FEENEY, Florida                  ROBERT C. SCOTT, Virginia
BOB GOODLATTE, Virginia              ADAM B. SCHIFF, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
MARK GREEN, Wisconsin                MAXINE WATERS, California
RIC KELLER, Florida                  MARTIN T. MEEHAN, Massachusetts
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia

                      Jay Apperson, Chief Counsel

                        Elizabeth Sokul, Counsel

                          Katy Crooks, Counsel

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JUNE 15, 2004

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress From the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress From 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

Mr. Albert C. Eisenberg, Delegate, Virginia House of Delegates
  Oral Testimony.................................................    24
  Prepared Statement.............................................    26
Mr. William J. Johnson, Executive Director, National Association 
  of Police Organizations
  Oral Testimony.................................................    28
  Prepared Statement.............................................    29
Mr. Ronald Ruecker, Superintendent, Department of Oregon State 
  Police, and Fourth Vice President, International Association of 
  Chiefs of Police
  Oral Testimony.................................................    31
  Prepared Statement.............................................    32
Mr. Chuck Canterbury, National President, Grand Lodge, Fraternal 
  Order of Police
  Oral Testimony.................................................    33
  Prepared Statement.............................................    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Press Statements and News Articles submitted by Rep. Robert C. 
  Scott..........................................................     4

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas.............    57
Letter from William J. Johnson, Executive Director, National 
  Association of Police Organizations............................    59
Memorandum, ``H.R. 218/S. 253, the Call of Duty'' from the Grand 
  Lodge, Fraternal Order of Police...............................    60

 
                       LAW ENFORCEMENT OFFICERS 
                           SAFETY ACT OF 2003

                              ----------                              


                         TUESDAY, JUNE 15, 2004

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:12 p.m., in 
Room 2141, Rayburn House Office Building, Hon. Howard Coble 
[Chairman of the Subcommittee] presiding.
    Mr. Coble. Good afternoon, ladies and gentlemen. The 
Judiciary Subcommittee on Homeland Security, Terrorism, and 
Crime will come to order.
    Let me visit with you just a minute before I make my 
opening statement. I see my friend Duke Cunningham from 
California, who has been nursing this bill for almost a decade, 
8 years, Duke. During that time, this bill has generated much 
attention. Reasonable men and women adamantly support it. 
Reasonable men and women mildly support it. Reasonable men and 
women adamantly oppose it. Reasonable men and women mildly 
oppose it, and they are all reasonable. I have talked to 
everyone on every side of this issue and I must commend all of 
them. They have been very evenhanded during the discussions 
with me.
    I am a cosponsor of the bill. I am told by the Chairman of 
the Full Committee, Mr. Sensenbrenner, if we are able to mark 
it up in Subcommittee today, he will schedule it for a markup 
tomorrow. So it is on a fast track.
    But it is good to have you all with us. And let me give my 
opening statement. Then I will recognize Mr. Scott. Then we 
will proceed to hear from the witnesses.
    The Subcommittee on Crime, Terrorism, and Homeland Security 
will conduct the first hearing on H.R. 218, the ``Law 
Enforcement Officers Safety Act of 2004.'' This hearing 
examines the need for active and retired State and local law 
enforcement officers to carry concealed firearms in interstate 
commerce without being required to obtain individual permits 
for the State in which they are traveling or residing.
    Currently, each State determines whether or not active or 
retired State and local law enforcement officers from other 
States are allowed to carry a concealed weapon within the 
State's borders. Currently, most States do not permit out-of-
State law enforcement officers to carry a concealed weapon 
within its borders.
    This legislation would mandate that States permit any State 
or local law enforcement officer to carry concealed weapons 
within its borders regardless of whether the officer resides in 
that State. States that do not currently allow out-of-State 
officers to carry concealed weapons within their borders would 
be required to do so under H.R. 218.
    Currently, Federal law enforcement officers are authorized 
to carry concealed weapons anywhere in the United States. This 
law does not have any impact on Federal officers' ability to 
carry firearms in interstate commerce.
    Police groups in support of this legislation contend that 
H.R. 218 will allow tens of thousands of trained law 
enforcement officers to continually serve and protect our 
communities regardless of jurisdiction or duty status at no 
cost to taxpayers. Supporters also contend that this will allow 
off-duty officers to protect themselves at all times.
    Opponents, on the other hand, argue that this should be an 
issue left to the States. States have typically had the right 
to determine who is eligible to carry firearms in their 
respective jurisdictions. Some contend that this legislation 
disregards the judgment of State authorities. Still others have 
voiced concern that there is too much variation among States 
regarding firearms training as well as off-duty and use of 
force policies.
    Because law enforcement is not unified regarding this 
legislation, the testimony we hear today will assist the 
Subcommittee in determining whether it is sound public policy 
to require the States to allow any active duty and retired 
State and local law enforcement officers from any State to 
carry concealed weapons in interstate commerce.
    I want to thank the witnesses who were able to be with us 
today and look forward to their testimony. With that, I am now 
pleased to recognize the Ranking Member, the distinguished 
gentleman from Virginia, Mr. Bobby Scott, for his opening 
statement.
    Mr. Scott. Thank you, Mr. Chairman. I am pleased to join 
you in convening the hearing on H.R. 218, the Law Enforcement 
Officers Safety Act of 2003. The bill authorizes ``qualified'' 
active and retired Federal and State law enforcement officials 
to carry concealed weapons interstate without regard to State 
and local laws prohibiting or regulating such carriage.
    A law enforcement officer includes corrections, probation, 
parole, and judicial officers, as well as police, sheriff, and 
other law enforcement officers who have had or who have 
statutory power over arrest and who were or are engaged through 
employment by a governmental entity in the prevention, 
detection, investigation, supervision, prosecution, or 
incarceration of law violators.
    In the past, we have considered this bill under the title 
``Community Protection Act,'' and I am not clear whether the 
current name change signals a change in the focus or the 
provisions of the bill or in strategies through which to 
promote it. The rhetoric surrounding the bill has indicated 
that its purpose is to aid and protect the public by putting 
tens of thousands of armed additional law enforcement officers 
in a position to protect the public as they travel from State 
to State and jurisdiction to jurisdiction. From the name of the 
current bill, it appears that the emphasis is now on the safety 
of officers as they travel. The legislative language appears to 
be the same as when the title and presumed purpose of the bill 
was to protect the public. So I am not clear on what the 
supporters and advocates of the bill intend that it authorize.
    I assume that the authorization to carry concealed weapons 
in a State is contemplated to be in connection with the 
incidental travel by law enforcement officers as opposed to a 
deliberate individual or ad hoc group, arranged interstate law 
enforcement efforts, although there does not appear to be 
anything to prevent such efforts. I do know that it is the 
specter of individually determined engagement of law 
enforcement decisions by out-of-State, plain clothed, untrained 
for the specific situation, involved in law enforcement that 
gives police chiefs and local and State governments huge 
concerns. I have heard a number of incidences involving 
friendly fire deaths and injuries between off-duty and 
undercover officers of the same force who mistakenly shoot each 
other due to not knowing who the plainclothes officer was. The 
engagement of out-of-State officers in law enforcement 
activities will certainly add to such unfortunate incidences. I 
am sure that there are anecdotal incidences in which an off-
duty officer has saved the day in a gun battle, but from a law 
enforcement management perspective, I expect that police chiefs 
see unauthorized, unfamiliar, untrained for the specific 
situation and condition out-of-State officers as more of a 
challenge to effective law enforcement than a help.
    I also don't know what the liability implications are for 
the local jurisdictions whose officers become engaged in out-
of-State law enforcement activities. But the liability 
insurance implications alone should give the Congress cause for 
pause in imposing an interstate concealed carrier provision on 
State and local governments. State legislatures can authorize 
out-of-State off-duty officers to carry concealed weapons 
within their jurisdictions and some have, although most have 
not.
    The primary organizations supporting this legislation tend 
to be representing rank and file line officers, for the most 
part, while those opposing the legislation tend to be managers 
and employers who are directly responsible to the public for 
the public policy involved in officers' conduct. The Federal 
Government should not usurp State and local options by choosing 
sides in such an employer-employee difference.
    I look forward to the testimony of the witnesses for 
enlightenment on these concerns and I would like to ask 
unanimous consent, Mr. Chairman, that several press statements 
and news articles outlining police officers killed by other 
police officers be introduced into the record.
    Mr. Coble. Without objection.
    [The material submitted by Mr. Scott follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Coble. Our first witness today is the Honorable Albert 
C. Eisenberg. Mr. Eisenberg became a delegate in the Virginia 
House of Delegates in 2004. Prior to serving in the House, Mr. 
Eisenberg served on the Arlington County Board and was a four-
time chairman of the County Board from 1984 to 1999. Mr. 
Eisenberg also worked as the Vice President for Government 
Affairs at the Greater Washington Board of Trade. He received 
his B.A. in history from the University of Richmond and his 
Master's in education from the Hampton Institute.
    Our second witness today is Mr. William Johnson. Mr. 
Johnson, you have a well known baseball name in this town. Mr. 
Johnson currently serves as the Executive Director of the 
National Association of Police Organizations, or NAPO, and the 
Police Research and Education Project. He previously served as 
general counsel to NAPO and is a former police officer and 
prosecutor, serving as chief prosecutor of the Crimes Division 
of the Dade County, Florida court. Mr. Johnson earned his B.A. 
at Brown University and his law degree from Georgetown 
University.
    Our third witness today is Mr. Ronald Ruecker. Mr. Ruecker 
was appointed Superintendent of the Department of Oregon State 
Police in December 1999. Prior to this, Mr. Ruecker served as 
Deputy Superintendent, commander of two of the department's 
three bureaus, and was Director of the Office of Professional 
Standards. He currently serves as the Fourth Vice President of 
the International Association of Chiefs of Police. Mr. Ruecker 
is a graduate of the FBI National Academy and the Program for 
Senior Executives at the John F. Kennedy School of Government 
of Harvard University.
    Our final witness today, Mr. Chuck Canterbury. Mr. 
Canterbury joined the Fraternal Order of Police in 1984 and 
helped to charter his local lodge. There, he served as 
president for 13 years and went on to serve as State Lodge 
President from 1990 to 1998. Mr. Canterbury was elected 
National President of the Fraternal Order of Police, popularly 
known as FOP--you all are still known as FOP, are you not, Mr. 
Canterbury?--in August of 2003. He earned his Bachelor of Arts 
degree from the Coastal Carolina University and has recently 
retired from the Horry County Police Department in Conway, 
South Carolina. He was appointed by President George W. Bush to 
the Homeland Security Advisory Council and to the Public Safety 
Officers Medal of Valor Review Board and actively serves in 
these capacities presently.
    I am also pleased, gentlemen, to recognize the presence of 
the gentleman from Wisconsin, the gentleman from Florida, the 
gentleman from Indiana, I think--I can't see him--Indiana, and 
the gentleman from Virginia, and the gentlelady from Texas was 
here, but I see she's gone.
    Gentlemen, I am told that there will be a vote scheduled on 
or about 3. We operate under the 5-minute rule here. Now, you 
all will not be boiled in oil if you violate that, but the 
panel that is before you, when you see the amber light appear, 
that is your warning that the red light is imminent. And when 
the red light appears, you will--just a moment. When the red 
light appears, that is your warning that the 5 minutes have 
expired.
    Gentlemen, if you all--it is the practice of the 
Subcommittee to swear in all witnesses appearing before it, and 
if you would, please, stand and raise your right hand.
    Do each of you solemnly swear that the testimony you are 
about to give this Subcommittee shall be the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Mr. Eisenberg. I do.
    Mr. Johnson. I do.
    Mr. Ruecker. I do.
    Mr. Canterbury. I do.
    Mr. Coble. Let the record show that each of the witnesses 
has answered in the affirmative. You may be seated, and we will 
hear first from Mr. Eisenberg.

          TESTIMONY OF ALBERT C. EISENBERG, DELEGATE, 
                  VIRGINIA HOUSE OF DELEGATES

    Mr. Eisenberg. Thank you, Mr. Chairman and Members of the 
Subcommittee. I kind of feel like Woody Allen who remarked that 
we stand at a crossroads. One path leads to utter ruin and the 
other to total despair and may God give us the wisdom to make 
the right choice, and I say that because some of my friends are 
for this legislation and some are against, and I would love to 
stand firmly with my friends, but I have to make a choice.
    In 1997, I testified in opposition to this legislation. My 
views remain the same. I share with you the perspective of 
someone who has the highest regard for our law enforcement 
personnel and for their extraordinary service day in and day 
out. No society can survive without the heroic and selfless 
actions of our law enforcement people, and for those actions, 
we are all truly grateful.
    Having spent 15 years in local government in a community 
with one of the top-rated police departments in the country, 
I'm quite familiar with the establishment of policies that 
guide the responsibility of our law enforcement officers. It's 
for their well-being and that of the public at large that I 
oppose this measure.
    In general, the legislation would preempt State and local 
law in permitting qualified law enforcement officers, current 
and retired, to carry concealed weapons across State 
boundaries, and there are a number of provisions that guide 
that.
    Municipal elected officers and local law enforcement share 
the common goal of ensuring the public's safety. The ultimate 
legal responsibility, however, rests with those elected 
locally, so I am going to focus on some troubling issues with 
this bill that has to do with States and communities.
    Particular concern are provisions that would preempt State 
and local firearms laws and increase municipal liability. We 
think this violates laws historically and properly--that 
properly rest with the jurisdiction of State and local 
governments. In my view, more guns mean more violence. Guns get 
lost. They get stolen for communities terribly afflicted by the 
proliferation of guns in their borders. It is totally 
inappropriate for the Federal Government to tell them they must 
accept additional firearms in their midst, even though they 
have judged at the State and local levels that they do not want 
to do so.
    The bill could significantly impact municipal liability. 
The chief law enforcement officer of a State or locality is 
responsible for the transfer of a firearm to a law enforcement 
officer. These agencies dictate policies and procedures as well 
as training and tactics for handling firearms, including level 
and type of firearm training, the particular type of weapon the 
department uses, and so on and so forth. Just because a law 
enforcement official knows how to handle a weapon doesn't mean 
they know the practices, laws, and protocols of the 
jurisdiction in which they carry it. What may be okay in one 
State could get an officer into deep trouble in another.
    If the police were specifically on duty as assigned to 
another State or locality, say for a joint task force, I think 
we would not be here today, but that's not what the law 
contemplates. It sets up an extracurricular gun carry law that 
risks police officials and the citizens of localities who are 
forced to change their law to accommodate the visitors. It 
casts a broad net over individual laws of States and localities 
without regard to the fact that these laws do vary greatly.
    What about the issue of liability? Well, if a firearm is 
improperly used, the liability may fall on the States and its 
communities. Which community will bear the liability? Would it 
be the one that employed the officer coming into a jurisdiction 
not of his or her own with a concealed weapon or the one in 
which an incident occurred? Many places do not have sovereign 
immunity from legal action for the actions of a law enforcement 
officer from another jurisdiction exercising police powers.
    In addition, under the legislation, the Federal Government 
is not responsible for the unfortunate incidents that may 
result because those officers allowed to carry concealed 
weapons into another State, again, do not know the laws and 
protocols of the particular area.
    If this law passes, it ought to require that the Federal 
Government accepts on behalf of the locality the level of 
training of a visiting officer such that he may carry a 
concealed weapon into another State and the Federal Government 
should be willing to fund the full burden of enforcement and 
liability insurance.
    Individuals are placed at legal liability jeopardy, as I 
have indicated. It puts these people in harm's way should they 
confront another police officer of the jurisdiction they are 
visiting who doesn't recognize the officer who's carrying a 
weapon not otherwise licensed or permitted.
    I know that in my jurisdiction, we had a situation where 
Arlington does not have sovereign immunity in the District of 
Columbia. An Arlington police officer chased bank robbers 
across the District line. Criminals fired at the officer, who 
stopped his vehicle. The robbers sped into the E Street 
expressway, crashed into a light pole, severed the legs of an 
Agriculture Department employee. A civil suit was brought 
against the county on the basis of training and protocols, 
protocol issues concerning the Arlington police officer, and in 
the end, the county had to cough up $5 million. As a result of 
the judgment, we had to raise taxes three times.
    Making the decision to permit current or retired police 
officers to carry firearms across State and jurisdictional 
boundaries would increase the number of firearms on the street. 
I believe that. There is no more basic responsibility or 
fundamental and historic State and local responsibility than 
public safety. It has been and is reserved to our constituents 
to determine. We know what the citizens decide in one community 
could be different from another. It's a basic right which is 
fundamental to our system of government.
    In closing, let me say that this legislation reminds me of 
the expression, with all due respect, we're the Federal 
Government and we're here to help you.
    Mr. Coble. Thank you, Mr. Eisenberg.
    [The prepared statement of Mr. Eisenberg follows:]

        Prepared Statement of the Honorable Albert C. Eisenberg

    Mr. Chairman and Members of the Subcommittee, I am Albert 
Eisenberg, a Delegate in the Virginia General Assembly, and former 
Chairman of the Arlington, VA, County Board. In 1997, I testified in 
opposition to this legislation before this subcommittee. My views 
remain the same. I appreciate this opportunity to share with you the 
perspective of someone who has the highest regard for our law 
enforcement personnel and for the extraordinary service they provide 
day in and day out. No society can survive without the heroic and 
selfless actions of our law enforcement people. And for those actions, 
we are all truly grateful.
    Having spent 15 years in local government, in a community that 
enjoys one of the top-rated police departments in the country, I am 
quite familiar with the establishment of policies that guide the 
responsibilities of our law enforcement officers. It is for their well 
being and that of the public at large that I oppose this measure.
    In general this legislation would preempt state and local law in 
permitting ``qualified'' law enforcement officers, both current and 
retired, to carry concealed firearms across state boundaries. The 
definition of law enforcement officer could include not just police 
officers, but also probation and corrections officers, and judicial 
personnel. To be ``qualified,'' current and former officers must comply 
with a number of requirements addressing identification, training, and 
certain authority to carry a firearm and to perform police duties, 
among other criteria. The same or similar conditions apply to retired 
officers under the legislation.
    Municipal elected officials and local law enforcement share the 
common goal of ensuring the public' safety. However, the ultimate legal 
responsibility for doing so rests with those elected. Thus, my comments 
will focus briefly on several troubling issues raised by the bill that 
could have the opposite impact than the proponents hope. Rather than 
benefiting individual states and communities and police personnel by 
enhancing police presence and firepower in our communities, such 
legislation could actually increase the number of firearms injuries to 
police officers, as well as the public. In short, we should be careful 
what we ask for. Here's why.
    Of particular concern are provisions that would preempt state and 
local firearms laws and increase municipal liability. This preemption 
violates the basic tenet that such laws historically and properly rest 
with state and local governments. It is inappropriate for the federal 
government to nullify laws tailored to the specific conditions and 
circumstances of each state and locality. Under this bill, states and 
localities that for their own good reasons have limited firearms use 
must tolerate the introduction of additional unwanted firearms into 
their midst. More guns mean more violence. Guns get lost. They get 
stolen. For communities terribly afflicted by the proliferation of guns 
in their borders it is totally inappropriate for the federal government 
to tell them that they must accept additional firearms in their midst. 
They should be allowed to determine for themselves, based on these 
jurisdictions own legal judgment the ability to regulate the use of 
firearms in their states, based on the conditions as these states and 
localities determine.
    This bill creates additional mischief. It could significantly 
impact municipal liability. The chief law enforcement officer of a 
state or locality is responsible for the transfer of a firearm to a law 
enforcement officer. State laws and local law enforcement agencies 
dictate polices and procedures, as well as training and tactics for 
handling firearms, including the level and type of firearm training, 
the particular type of weapons the department uses to meet the 
circumstances most likely to confront its officers, and, of increasing 
importance to law enforcement agencies across the country, the use of 
force. Just because a law enforcement official knows how to handle a 
weapon doesn't mean they know the practices, laws, and protocols of the 
jurisdiction in which they carry it.
    While the bill would allow a police officer to carry a concealed 
weapon in any state or locality, regardless of the jurisdictions' 
concealed carry laws, an officer is still subject to other laws, 
protocols, and policies involving the use of firearms in any given 
state or community. What may be OK in one state could get an officer 
into deep trouble in another. Not to mention individual citizens 
without firearms who may confront a police official, not in uniform, 
not from the local community, and not on duty. If the police official 
were specifically on duty as assigned to another state or locality, 
say, for a joint task force--then we wouldn't be here today. But that's 
not what the law contemplates. It in effect sets up an extracurricular 
gun carry law that risks police officials and the citizens of 
localities forced to change their laws to accommodate visitors, even 
though they may be fully qualified law enforcement people in their home 
localities.
    If a firearm is improperly used, the liability may fall on the 
state and its communities. Which community will bear the liability? 
Would it be the one that employed the officer coming into a 
jurisdiction not of his own with a concealed weapon, or the one in 
which an incident occurred? We have all heard the tragic stories of 
off-duty or plainclothes officers in their own jurisdictions mistakenly 
shooting fellow officers they thought to be armed suspects because in 
the course of that moment they could not identify the person with a 
concealed weapon as a fellow officer.
    In short, the bill would place law enforcement personnel at legal 
and liability jeopardy because they will not know the laws, practices, 
protocols, and procedures that the local or state authorities have 
trained to implement. Individual law enforcement officials, due to 
their ignorance of the localities they enter, will be at great danger 
of ruinous personal lawsuits, particularly in those jurisdictions that 
have sovereign immunity against lawsuits based on actions for which 
they would otherwise be liable. It puts these persons in harm's way, 
should they confront another police official of the jurisdiction they 
are visiting, who doesn't recognize the officer who is carrying a 
weapon not otherwise licensed or permitted in that jurisdiction. It 
subjects these officers and/or their home jurisdictions to significant 
liability that could bankrupt individuals and raise property taxes for 
localities.
    I know this first hand. Arlington does not have sovereign immunity 
in the District of Columbia. An Arlington police officer chased bank 
robbers across the District line. The criminals fired at the officer, 
who stopped his vehicle. The robbers sped into the E Street Expressway, 
crashed into a light pole and severed the legs of an Agriculture 
Department employee. A civil suit was brought against the county on the 
basis of training and protocols issues concerning the Arlington police 
officer and his actions taken in another jurisdiction. The county lost 
the suit to the tune of $5 million, and for three years, the County 
Board had to raise the real estate tax to pay off the judgment. Don't 
tell me it can't happen here. This legislation will result in similar 
situations in other places as police officers allowed to carry 
concealed weapons in jurisdictions that do not now have them, get into 
all sorts of legal quicksand, that could bankrupt them personally, not 
to mention the fiscal damage to the locality that authorized use of the 
weapon.
    If this law passes, it ought to require that if the federal 
government accepts on behalf of a locality the level of training of a 
visiting officer such that he may carry a concealed weapon into another 
state, then the federal government should be willing to fund the full 
burden of enforcement and liability insurance of whatever unfortunate 
actions result.
    With respect to former law enforcement officers, there do not 
appear to be any controls regarding issues such as retraining, or what 
type weapon former officers would be allowed to carry. How often would 
a ``qualified'' former officer's status be renewed? Where would the 
liability rest in cases in which retired officers live in two different 
states? Since the retired person allowed to carry a concealed weapon 
may no longer be fluent in present laws and protocols not only of his 
own state and locality, but also in other places, he may be at jeopardy 
for what he does not know.
    There is no more basic responsibility or fundamental and historic 
state and local responsibility than public safety. It has been and is 
reserved to our constituents to determine. We know that what the 
citizens decide in one community could be different from another. That 
is a basic right, fundamental to our system of government.
    In closing, let me say that this legislation reminds me of the 
expression--we're the federal government, and we're here to help you. 
Pu-leeze.
    Thank you, Mr. Chairman and members of the subcommittee. I await 
any questions you may have.

    Mr. Coble. Mr. Johnson?

 TESTIMONY OF WILLIAM J. JOHNSON, EXECUTIVE DIRECTOR, NATIONAL 
              ASSOCIATION OF POLICE ORGANIZATIONS

    Mr. Johnson. Thank you and good afternoon, Mr. Chairman, 
Ranking Member Scott, Members of the Subcommittee. My name is 
Bill Johnson and I'm the Executive Director for the National 
Association of Police Organizations. NAPO is a coalition of 
police associations from across the United States that serves 
here to advance the interests of America's law enforcement 
through legislative and legal advocacy. On behalf of our 
236,000 rank and file law enforcement officers, including those 
officers represented by the International Brotherhood of Police 
Officers, I'd like to thank you for this opportunity to testify 
today in support of this legislation.
    Today, I'd like to remark on two fundamental reasons why 
H.R. 218 should be passed into law. First, society asks the men 
and women of law enforcement to protect the social welfare and 
stand between it and the anarchy of violence and crime. On this 
front line, law enforcement defends the public safety. They are 
constantly, thus, in the crosshairs of crime. Yet when off duty 
or traveling on vacation, officers are left unprotected from 
this constant threat.
    Now criminals, by definition, are not deterred by State 
statutes. Criminals do not observe jurisdictional lines when 
seeking revenge against law enforcement officers who have 
enforced society's laws against them. What makes H.R. 218 so 
important is that criminals do not punch a time clock. There is 
no off-duty time for those who target police officers and their 
families.
    An example of this comes from the Hempstead, New York, 
Police Department. There, officers assigned to the gang task 
force, comprised of DEA, FBI, ATF, and State and local law 
enforcement, are constantly subjected to stalkings by gangs 
seeking retribution. Personal car license plate information and 
the movements of officers and their families are unabashedly 
observed and recorded by gang members. Threats against 
officers' lives are constant and do not end when the shift 
concludes.
    Second, it cannot be overstated that in an age of 
heightened homeland security, there can be no better means to 
preserve the public safety than a highly trained officer 
bringing his or her experience and expertise to situations in 
which they may have previously been unable to act.
    An example of this came in January of 2001 when Lieutenant 
Luther Lutz of the Los Angeles Police Department left a 
shopping mall while off duty. Lieutenant Lutz noticed two men 
fighting over an object, which turned out to be a gun. 
Immediately, the lieutenant announced himself as a police 
officer and directly intervened. One of the men wrestled the 
gun away from the other and a shot was fired. The lieutenant, 
who was armed although off duty, drew his weapon and fired upon 
the shooter, stopping him from killing the victim. As it turned 
out, the men fighting were both violent gang members, but the 
work of the police officer even when off duty is blind to such 
allegiances.
    Now, some might say that H.R. 218 might somehow encourage 
vigilantism. This is not true. It is imperative to understand 
that officers who are off duty have families and take vacations 
just like you and I. They desire nothing more than to enjoy 
their time off. Officers do not seek out confrontations, but it 
would be tragic if officers were denied the ability to respond 
when threats to the public safety do arise. Honed by years of 
experience, it is rare for an officer on or off duty to even 
discharge his or her firearm. Officers utilize the knowledge 
gained from numerous on-duty situations to achieve a non-lethal 
conclusion to many dangerous situations.
    We understand that in the past, areas of concern such as 
liability and officer proficiency have also been raised. H.R. 
218 has been refined over time and the current bill addresses 
these concerns. Officers will have to be in good standing to 
carry their firearm. Retired officers will still be required to 
pass the same rigorous and thorough State firearm standards as 
their active peers. H.R. 218 does not infringe upon State laws 
restricting possession of firearms on private property, nor 
does it infringe on laws regarding possession of firearms on 
State property or government installations.
    We would respectfully suggest to the Committee that H.R. 
218 only focuses on police officers' right to carry their 
firearms. State and Federal law regarding self-defense and the 
use of force remain unaffected by this bill.
    Now, some may say that States should be afforded the option 
to opt out if they do not agree. We believe this language or 
such language would substantially weaken the bill. The needs of 
officers to protect themselves would be hindered by the same 
patchwork of coverage that exists today. Others might call for 
States to opt in, rendering the bill nothing more than a 
framework which the individual States could ratify if they so 
wish. This would produce the same results as the status quo and 
would not address the overarching need of a unifying Federal 
bill to protect all officers across all jurisdictions. Again, 
criminals and terrorist threats ignore by definition legal and 
jurisdictional limits.
    H.R. 218 currently enjoys strong, strong bipartisan 
support, as of this morning, I believe 296 cosponsors. Its 
Senate companion, S. 253, was accepted by the Senate Judiciary 
18 to one, and the full Senate considered it as an amendment to 
other legislation in March of this year. That same language as 
the House bill contained was overwhelmingly approved by the 
Senate 91 to eight.
    Now is the time and the opportunity to provide this crucial 
protection for America's police officers and the public. Thank 
you for allowing me to speak here today, and I'd be happy to 
answer any questions.
    Mr. Coble. Thank you, Mr. Johnson.
    [The prepared statement of Mr. Johnson follows:]

                Prepared Statement of William J. Johnson

    Chairman Coble, Ranking Member Scott, members of the House 
Subcommittee, my name is Bill Johnson and I am the Executive Director 
of the National Association of Police Organizations. NAPO is a 
coalition of police unions and associations from across the United 
States that serves here in Washington, D.C., to advance the interests 
of America's law enforcement through legislative and legal advocacy.
    On behalf of NAPO's 236,000 rank-and-file law enforcement officers, 
I would like to thank you for this opportunity to testify today on the 
bi-partisan supported law enforcement officer right to carry 
legislation.
    Today, I would like to remark on two fundamental reasons why H.R. 
218 should be passed into law. What stands before us today is a bill 
that will greatly improve the ability of law enforcement officers to 
protect themselves, their families and our nation's communities. Never 
before has support for this goal been stronger. Never before has the 
need for its passage been greater.
    First, society asks the men and women of law enforcement to protect 
the social welfare and stand between it and the anarchy of violence and 
crime. On this front line, law enforcement defends the public's safety. 
They are constantly held in the crosshairs of crime.
    Yet when off duty or traveling on vacation, officers are left 
unprotected from this constant threat. Criminals, by definition, are 
not deterred by state statutes. Criminals do not observe jurisdictional 
lines when seeking revenge against officers who have enforced society's 
laws against them.
    What makes H.R. 218 so important is that criminals do not punch a 
time clock. There is no off-duty for those who target police officers 
and their families.
    A typical example of this comes from the Hempstead, New York Police 
Department. Officers assigned to the Gang Task Force, comprised of DEA, 
FBI, ATF and state and local law enforcement, are constantly subjected 
to stalkings by gangs seeking retribution. Personal car license plate 
information and the movements of officers and their families are 
unabashedly observed and recorded by gang members. Threats against 
officer's lives are constant and do not end when the shift concludes.
    Second, it can not be understated that in an age of heightened 
homeland security, there can be no better means to preserve the 
public's safety then a highly trained officer bringing his or her 
experience and expertise to situations in which they might have 
previously been unable to act.
    An example of this came in January of 2001 when Lt. Luther Lutz of 
the Los Angeles Police Department left a shopping mall while off duty. 
Lt. Lutz noticed two men fighting over an object, which turned out to 
be a gun. Immediately, Lt. Lutz announced himself as a police officer 
and directly intervened. One man wrestled the gun away from the other; 
a shot was fired. Lt. Lutz, who was armed, drew his weapon and fired 
upon the shooter, stopping him from killing the victim. As it turned 
out, the men fighting were both violent gang members, but the work of 
police, even when off duty, is blind to such allegiances.
    Some will no doubt say that H.R. 218 will encourage vigilantism. It 
is imperative to understand that officers who are off duty have 
families and take vacations just like you and I. They desire nothing 
more then to enjoy their time off. Officers do not seek out 
confrontations, but it would be tragic if officers were denied the 
ability to respond when threats to the public's safety do arise.
    Honed by years of experience, it is rare for an officer to even 
discharge his or her firearm. Officers utilize the knowledge gained 
from numerous on-duty situations to achieve the non-lethal conclusion 
to many dangerous situations.
    We appreciate the attention opponents of H.R. 218 have devoted to 
the issue. We understand that in the past, areas of concern such as 
liability and officer proficiency have been fairly raised.
    H.R. 218 has been refined over time and the current bill addresses 
these concerns. Officers will have to be in good standing to carry 
their firearm. Retired officers will still be required to pass the same 
rigorous and thorough firearm standards as their active peers. H.R. 218 
does not infringe upon state laws restricting possession of firearms on 
state property. Nor does it infringe on the right of private property 
owners to control who may possess a firearm on private property.
    We would respectfully remind the Subcommittee that H.R. 218 only 
focuses on police officers already proficient and permitted to carry 
firearms. State and federal law regarding self defense and the use of 
force remain unaffected by this bill.
    Some will say that states should be afforded the option to ``opt 
out'' if they do not agree. This language would substantially weaken 
the bill. The needs of officers to protect themselves would be hindered 
by the same patchwork of coverage that exists today.
    Others will call for states to ``opt in'' rendering the bill 
nothing more then a framework which the individual states could ratify 
if they so wish. This would produce the same result as the status quo. 
It would not address the overarching need of a unifying federal bill to 
protect all officers across all jurisdictions. Again, criminals and 
terrorist threats ignore, by definition, legal and jurisdictional 
limits.
    Right to Carry legislation was first introduced in the 102nd 
Congress by Representative Randy ``Duke'' Cunningham (R-CA) and since 
then, NAPO and other law enforcement groups have fought hard to ensure 
its passage.
    H.R. 218 currently enjoys the bi-partisan support of 295 co-
sponsors. Its Senate companion, S. 253, was accepted by the Senate 
Judiciary Committee 18-1. The full Senate considered it as an amendment 
to other gun legislation in March 2004. The same language as the House 
bill we are considering today received the overwhelmingly favorable 
vote of 91-8.
    Now is the time and this is the opportunity to grant this basic 
protection to police officers and an important asset to our 
communities. The last act an officer wants to do is to be forced to use 
their firearm, yet threats to their safety and the public's safety do 
exist 24 hours a day. I thank you for the opportunity to speak on 
behalf of this legislation and the hopes of America's law enforcement 
community.
    I am happy to answer any questions you, or the committee members 
may have.

    Mr. Coble. Mr. Ruecker?

  TESTIMONY OF RONALD RUECKER, SUPERINTENDENT, DEPARTMENT OF 
 OREGON STATE POLICE, AND FOURTH VICE PRESIDENT, INTERNATIONAL 
                ASSOCIATION OF CHIEFS OF POLICE

    Mr. Ruecker. Thank you, Mr. Chairman, Members of the 
Committee. I want to thank you for the opportunity to be here 
and testify on this bill. I have written testimony which I 
would respectfully request to be made available to you and----
    Mr. Coble. Without objection, it will be received.
    Mr. Ruecker. Thank you, sir. What I would like to do is 
spend my time talking about some practical concerns and 
considerations that I'm here to speak about.
    First of all, the IACP is a 19,000-plus member 
organization, the largest and oldest association of law 
enforcement executives in the world. The IACP has consistently 
opposed Federal legislation that would preempt or mandate the 
liberalization of an individual State's laws concerning the 
carrying of concealed weapons. That's the responsibility of the 
State in the view of the IACP.
    Within the bill, there are a number of practical issues 
that arise, including the various disparity in firearms 
training levels and a number of other things that differ from 
State to State. And in my State in particular, just to 
illustrate that there is an early opinion that even reserve 
police officers may be covered by this bill, which I do not 
think is the intention of the legislation, but that seems to be 
the early opinion out there.
    But what concerns me and what concerns the IACP more than 
anything are what appears to be--I mean, certainly, we 
understand the legislation is well intended and there are 
certainly circumstances under which a police officer carrying a 
firearm off-duty and outside their jurisdiction might, in fact, 
produce a good outcome. It could save somebody's life, 
including the officer's. But just as certainly, there are 
circumstances under which an officer outside of their 
jurisdiction, having the only tool that they would normally 
have available to them if they were on duty in their own 
jurisdiction, is certainly just as likely to create some tragic 
accidents and we're concerned about that.
    If police agencies and police officers are required under 
considerable scrutiny, and rightfully so, to defend the actions 
of our officers against what is called a use-of-force 
continuum. Police officers are trained to use the right amount 
of force for a given situation and the firearm, of course, is 
the last resort. If the only tool the officer has available to 
them is their firearm, they are definitely going to be in a 
situation where the only response they can go to is the one 
involving a use of deadly force.
    There most certainly will be circumstances when officers 
are on vacation and traveling with their families in which they 
are not going to be able to be recognized. Some of these 
officers are undercover narcotics officers who by the 
definition of their position are not recognized even in their 
own community as being a police officer. So we send those 
officers to some other jurisdiction where they have no power of 
arrest, where they have no authority whatsoever than any other 
private citizen, and we put them in a position of having, 
perhaps having to first be identified as a police officer under 
circumstances in which----
    Mr. Coble. If you will wrap up, your time is over.
    Mr. Ruecker. Yes, sir. Thank you. Let me just sum up, Mr. 
Chairman, by saying that we are very concerned about the very 
men and women that I'm sworn to support. I love these police 
officers. They are out there doing the job we need them to do. 
But when they go on vacation or outside their jurisdiction, 
they need to be able to decompress and not be in a situation 
where they are going to be forced on duty.
    Mr. Coble. I thank you, sir.
    [The prepared statement of Mr. Ruecker follows:]

                  Prepared Statement of Ronald Ruecker

    Good Afternoon, Chairman Coble, Representative Charles and Members 
of the Subcommittee.
    I am pleased to be here this afternoon to present the views of the 
International Association of Chiefs of Police on H.R. 218, the Law 
Enforcement Officers Safety Act of 2002. As you know, the IACP is the 
world's oldest and largest association of law enforcement executives, 
with more than 19,000 members in 100 countries. Before I address our 
concerns with this legislation, I would like to express my gratitude 
and the gratitude of the IACP to this committee for your continuing 
support of this nation's law enforcement agencies and law enforcement 
officers.
    As you know, the IACP is strongly opposed to the Law Enforcement 
Officers Safety Act. Our opposition is based primarily on the 
fundamental belief that states and localities should determine who is 
eligible to carry firearms in their communities. Over the years, IACP 
has consistently opposed any federal legislative proposals that would 
either pre-empt and/or mandate the liberalization of an individual 
state's laws that would allow citizens of other states to carry 
concealed weapons in that state without meeting its requirements. The 
IACP believes it is essential that state governments maintain the 
ability to legislate concealed carry laws that best fit the needs of 
their communities. This applies to laws covering private citizens as 
well as active or former law enforcement personnel. The IACP also 
believes that each state should retain the power to determine whether 
they want police officers that are trained and supervised by agencies 
outside their state to carry weapons in their jurisdictions.
    In addition, authority for police officers to carry firearms when 
off-duty, use-of-force policies and firearms training standards vary 
significantly from state to state. Why should a police chief who has 
employed the most rigorous training program, a strict standard of 
accountability and stringent policies be forced to permit officers who 
may not meet those standards to carry a concealed weapon in his or her 
jurisdiction?
    However, in addition to these fundamental questions over the 
preemption of state and local firearms laws, the IACP is also concerned 
with the impact that this legislation may have on the safety of our 
officers and our communities.
    There can be no doubt that police executives are deeply concerned 
for the safety of our officers. We understand the proponents of H.R. 
218 contend that police officers need to protect themselves and their 
families while traveling, and that undercover officers may be targets 
if recognized on vacation or travel. These are considerations, but they 
must be balanced against the potential dangers involved. In fact, one 
of the reasons that this legislation is especially troubling to our 
nation's law enforcement executives is because they could in fact 
threaten the safety of police officers by creating tragic situations 
where officers from other jurisdictions are wounded or killed by the 
local officers. Police departments throughout the nation train their 
officers to respond as a team to dangerous situations. This teamwork 
requires months of training to develop and provides the officers with 
an understanding of how their coworkers will respond when faced with 
different situations. Injecting an armed, unknown officer, who has 
received different training and is operating under different 
assumptions, can turn an already dangerous situation deadly.
    In addition, the IACP believes that this legislation would do 
little to improve the safety of communities. It is important to 
remember that a police officer's authority to enforce the law is 
limited to the jurisdiction in which they serve. An officer, upon 
leaving his jurisdiction, has no arrest powers or other authority to 
enforce the law. That is the responsibility of the local law 
enforcement agencies.
    In addition, the IACP is concerned that the legislation specifies 
that only an officer who is not subject to a disciplinary action is 
eligible. This provision raises several concerns for law enforcement 
executives. For example, what types of disciplinary actions does this 
cover? Does this provision apply only to current investigations and 
actions? How would officers ascertain that an out-of-state law 
enforcement officer is subject to a disciplinary action and therefore 
ineligible to carry a firearm?
    Additionally, while the legislation does contain some requirements 
to ensure that retirees qualify to have a concealed weapon, they are 
insufficient and would be difficult to implement. The legislation fails 
to take into account those officers who have retired under threat of 
disciplinary action or dismissal for emotional problems that did not 
rise to the level of ``mental instability.'' Officers who retire or 
quit just prior to a disciplinary or competency hearing may still be 
eligible for benefits and appear to have left the agency in good 
standing. Even a police officer who retires with exceptional skills 
today may be stricken with an illness or other problem that makes him 
or her unfit to carry a concealed weapon, but they will not be overseen 
by a police management structure that identifies such problems in 
current officers.
    Finally, the IACP is also concerned over the liability of law 
enforcement agencies for the actions of off-duty officer who uses or 
misuses their weapon while out of state. If an off-duty officer who 
uses or misuses their weapon while in another state, it is likely that 
their department will be forced to defend itself against liability 
charges in another state. The resources that mounting this defense 
would require could be better spent serving the communities we 
represent.
    In conclusion, I would just like to state that the IACP understands 
that at first glance this legislation may appear to be a simple 
solution to a complex problem. However, a careful review of these 
provisions reveals that it has the potential to significantly and 
negatively impact the safety of our communities and our officers. It is 
my hope that this committee will take the concerns of the IACP into 
consideration before acting upon this legislation.
    This concludes my statement. I will be pleased to answer any 
questions you may have.

    Mr. Coble. Mr. Canterbury?

TESTIMONY OF CHUCK CANTERBURY, NATIONAL PRESIDENT, GRAND LODGE, 
                   FRATERNAL ORDER OF POLICE

    Mr. Canterbury. Good afternoon, Mr. Chairman, distinguished 
Members of the Subcommittee. As previously stated, my name is 
Chuck Canterbury and I'm the National President of the 
Fraternal Order of Police, the largest law enforcement labor 
organization in the United States, with more than 318,000 
members, and also a former member of the International 
Association of Chiefs of Police and a 26-year veteran police 
officer and firearms instructor.
    Before I begin, Mr. Chairman, I would like to thank you for 
inviting me to testify today, but I'd also like to thank you 
for your efforts last year on helping to pass the FOP priority 
Hometown Heroes Survivors bill. I was disappointed you were not 
able to join with me and the President of IAFF in the Oval 
Office when President Bush signed the bill into law, but rest 
assured, we told the President how grateful we were to you, 
your staff, and your able counsel, Jay Abramson.
    Now we are here again, Mr. Chairman, and we are hopeful 
that you will again be able to work with the FOP on another 
important bill, H.R. 218, the Law Enforcement Officers Safety 
Act, previously known as the Community Protection Act, and 
Congressman Scott was absolutely correct. This bill is designed 
to protect both the citizens of this country and our law 
enforcement officers.
    The passage of this bill is an FOP top priority, one that 
we have shared with the Federal Law Enforcement Officers 
Association and with the National Sheriffs Association. Our 
nation's police officers, especially now, are as much guardians 
of our security as they are protectors from crime and violence. 
These brave men and women are unlike other professionals 
because they are rarely off duty and their instincts, their 
desire to help, and their fidelity to an oath to serve and 
protect their fellow citizens never retires and never goes off 
duty.
    In an emergency, an officer's knowledge and training would 
be rendered virtually useless without a firearm. This bill 
would provide the means for law enforcement officers to enforce 
the law, keep the peace, and respond to crisis situations by 
enabling them to put to use that training and answer that call 
of duty when the need arises.
    Let's not forget that vengeful violent felons can and do 
target police officers and they do not care if the officer is 
in his or her jurisdiction, nor do they care if the officer is 
in uniform or not, on duty, off duty, active or retired.
    Consider the case of Detective Charles Edward Harris, a 20-
year veteran of the Southern Pines Police Department in North 
Carolina. Detective Harris was targeted after drug dealers 
spotted him attending a Crime Watch meeting in an apartment 
complex. His killers waited until off duty, rang the doorbell 
at his home, then shot and killed him. His wife, who was home 
at the time, was also hit.
    Over the years, the FOP has been working on this 
legislation. We have compiled the names of 58 officers who, 
like Detective Harris, were off duty when they were killed. Yet 
despite not being on the clock, the circumstances of their 
deaths qualified them as having died in the line of duty. Some, 
like Detective Harris, were targets simply because they were 
police officers. Others lost their lives when they acted to 
help a victim or stop a crime in progress, and with your 
permission, Mr. Chairman, I'd like to provide you a document to 
be entered into the record with those names.
    Mr. Coble. Without objection.
    Mr. Canterbury. The fate of these 58 officers should remind 
all of us that law enforcement is a dangerous profession. There 
is no legislation, act of Congress, or Government regulation 
which will change this sobering fact. But the passage of H.R. 
218 will, at the very least, give officers who do choose to 
carry their firearms the chance to defend themselves, their 
families, and the public whenever or wherever criminals or 
terrorists choose to strike.
    The premise of this legislation is not unprecedented. 
Congress has previously acted to force States to recognize 
concealed carry permits issued by other States on the basis of 
employment and the dangers inherent to the nature of that 
employment. Congress has passed laws mandating reciprocity for 
weapons licenses issued to armored car company crew members and 
more recently voted overwhelmingly to exempt airline pilots who 
volunteer to become Federal flight deck officers from State and 
local firearm laws.
    Mr. Chairman, if Congress can mandate that private security 
guards and airline pilots can carry in all States, I do not 
think it should balk in extending the same authority to fully 
sworn, fully trained law enforcement officers employed by 
government entities which are carefully defined by the bill. 
Active officers must meet the qualification standards 
established by the agency, and retired officers must requalify 
with their firearm at their own expense every 12 months and 
meet the same standards as active officers in the State in 
which they reside.
    This bill is not controversial. The legislation has 
widespread bipartisan support, and that total includes 11 of 
the 13 Members of this Subcommittee, all of who cosponsored 
this legislation.
    Mr. Chairman, thank you for the opportunity to testify 
before the Subcommittee today and I would be pleased to answer 
any questions from our perspective.
    Mr. Coble. Thank you, Mr. Canterbury.
    [The prepared statement of Mr. Canterbury follows:]

                 Prepared Statement of Chuck Canterbury

    Good afternoon, Mr. Chairman and distinguished members of the 
Subcommittee on Crime, Terrorism and Homeland Security. My name is 
Chuck Canterbury, and I am the National President of the Fraternal 
Order of Police, the largest law enforcement labor organization in the 
United States, representing more than 318,000 members in every region 
of the nation.
    I want to begin by thanking you, Mr. Chairman, for holding this 
hearing and giving the Fraternal Order of Police an opportunity to talk 
about the importance of H.R. 218, the ``Law Enforcement Officers' 
Safety Act.'' To the Fraternal Order of Police, its members and rank-
and-file officers across the nation, whatever their representative 
organization, the enactment of legislation exempting qualified active 
and retired law enforcement officers from State and local prohibitions 
on the carrying of concealed firearms is a top legislative priority. 
Virtually every rank-and-file officer in the nation agrees with us that 
this bill is not and has never been a ``firearms issue''--it is an 
officer safety issue, and, on 11 September 2001, it became a critical 
public safety and homeland security issue as well.
    Our nation's police officers are as much guardians of our security 
as they are our protectors from crime and violence. We allow our 
children to play in local parks because we know our streets are 
patrolled by the men and women of our local police department. We trust 
these officers to keep our homes and neighborhoods safe. They provide 
us with a sense of security in all aspects of our daily lives. These 
men and women are unlike other professionals because they are rarely 
``off-duty.'' Moreover, their instincts, their desire to help and their 
fidelity to an oath to serve and protect their fellow citizens never 
retires and never goes off the clock.
    Consider the case of John Perry, a Lieutenant with the New York 
City Police Department who, had the morning of 11 September 2001 off 
from work. He was at Police Headquarters in lower Manhattan filing his 
retirement papers when the first airliner struck the World Trade 
Center. The off-duty lieutenant rushed to the scene, joining Captain 
Timothy Pearson and other officers evacuating victims from the second-
floor mezzanine of the north tower. John Perry never made it out.
    Lt. John Perry spent his day off responding to one of the greatest 
tragedies our nation has ever endured. John Perry risked his life to do 
his duty--and he did not worry about whether or not he punched his time 
card.
    While John Perry was the only off-duty officer to be lost that day, 
he was not the only off-duty officer to help respond to the aftermath 
of the attacks. The ranks of volunteers in New York City, Pennsylvania, 
northern Virginia and Washington, D.C. were swelled by retired law 
enforcement officers and off-duty officers from every region of the 
country who had come to offer their services. Police officers, 
firefighters, and EMS personnel worked side-by-side, with each 
professional relying on one another to assist according to their 
specialized training and experience. The help rendered by these public 
safety officers was received with gratitude by the victims and their 
fellow emergency response personnel. It did not matter whether they 
were off-duty or not--they knew they could count on a particular level 
of training and professionalism from these volunteers. Yet off-duty and 
retired law enforcement officers were in legal jeopardy as a result of 
their volunteer efforts.
    As the World Trade Center burned, many off-duty and retired 
officers rushed to New York and New Jersey, hoping to help the victims 
of the attack and provide relief for the exhausted New York City police 
officers. These well-intentioned volunteers may have been in violation 
of State and local law because New York and New York City restrict the 
ability of off-duty police officers from other jurisdictions to carry 
their firearms. Similarly, across the river in New Jersey, which was 
used as a staging and recovery area, armed law enforcement officers not 
employed by that State may not have been eligible for exemption from 
New Jersey's statute against unlawful weapons possession. Any armed 
officer crossing a jurisdictional boundary to volunteer his time in 
response to this tragedy may have been breaking the law.
    Pennsylvania, the only State on 11 September without casualties on 
the ground, does not have a clear exception for police officers 
employed outside of Pennsylvania. Off-duty police officers that, 
without hesitation, volunteered in response to the scene may have been 
in violation of State law if they carried their firearms with them 
while assisting their colleagues in Pennsylvania.
    I feel certain that most of the officers who volunteered had their 
firearms with them. I do not know any law enforcement officer who would 
feel comfortable being in uniform or performing official duties without 
their firearm. None of the other professional first responders that 
volunteered their services on 11 September left their tools, instincts 
or training behind. Only police officers were exposed to legal jeopardy 
while at or traveling to the site of the attacks.
    Law enforcement is a profession, and professionals fill its ranks. 
Among the many tools of a professional law enforcement officer are the 
badge and the gun. The badge symbolizes the officer's authority and, in 
worst-case scenarios, the gun enforces that authority. These tools are 
given to the officer in trust by the public to enforce the peace and 
fight crime. In asking Congress to pass this bill, we seek a measured 
extension of that trust. In emergency circumstances, an officer's 
knowledge and training would be rendered virtually useless without a 
firearm. This bill will provide the means for law enforcement officers 
to enforce the law, keep the peace and respond to crisis situations by 
enabling them to put to use that training and answer the call to duty 
when need arises. Without a weapon, the law enforcement officer is like 
a rescue diver without diving gear--all the right training and talent 
to lend to an emergency situation, but without the equipment needed to 
make that training of any use. Neither criminals nor terrorists give up 
their weapons when they cross jurisdictional boundaries, why should 
police officers?
    When the Fraternal Order of Police talks about the passage of H.R. 
218 as an officer safety issue, we mean it. A police officer cannot 
remember the name and face of every criminal he or she has locked 
behind bars, but criminals often have long and exacting memories. 
Passage of this legislation will give police officers the legal means 
to defend themselves and their families from vengeful, violent acts. 
Police officers are frequently finding that they, and their families, 
are targets in uniform and out, off-duty and on, active and retired.
    Consider, Mr. Chairman, the case of a police officer from your own 
district, Detective Charles Edward Harris, a twenty-year veteran with 
the Southern Pines Police Department in North Carolina. Detective 
Harris was targeted after drug dealers spotted him attending a ``crime 
watch'' meeting at an apartment complex. His killers waited until he 
was at home and off-duty, then rang his doorbell. Detective Harris was 
shot and killed. His wife, who was also home at the time, was also hit.
    Over the years that the F.O.P. has been working on this 
legislation, we have compiled the names of 58 officers who, like 
Detective Harris, were off-duty when they were killed. Yet despite not 
being on the clock, the circumstances of their deaths qualified them as 
having died ``in the line of duty.'' Some, like Detective Harris, were 
recognized as, discovered to be, or identified themselves as police 
officers, prompting their assailants to kill them. Others were killed 
when they placed themselves in harm's way to help a victim or stop a 
crime in progress. With your permission, Mr. Chairman, I would like 
this document to be entered into the record.
    Permit me to provide a few additional examples from this document:

        <bullet>  Detective Thomas G. Newman, a twelve-year veteran of 
        the Baltimore City Police Department in Maryland had been shot 
        and wounded while off-duty in 2001. He testified against his 
        assailant, who was sentenced to thirty years in prison. On 23 
        November 2002, Detective Newman was shot to death by three 
        suspects--friends and relatives of the criminal that Detective 
        Newman had sent to jail--in an act of criminal retaliation.

        <bullet>  Police Officer Joseph Jerome Daniels, a ten-year 
        veteran of the Birmingham Police Department in Alabama was shot 
        and killed on 11 November 2002. The officer was eating his 
        dinner at a local restaurant when a man entered, announced that 
        he was robbing the establishment and ordered everyone on the 
        floor. Officer Daniels immediately took action and was shot 
        several times in a struggle with the robber. He died of his 
        injuries on the scene.

        <bullet>  Detective Donald Miller, a ten-year veteran with the 
        New Bern Police Department in North Carolina was off-duty on 23 
        December 2001. He and his wife had just finished their visit to 
        their newborn child in the hospital when the detective observed 
        a man driving recklessly through the hospital parking lot. He 
        confronted the man, who drew a handgun and fired--striking 
        Miller in the head. Detective Miller, father of two, died two 
        days later on Christmas Day.

        <bullet>  Detective Kevin Darrell Rice, Sr. was off-duty on the 
        evening of 3 August 2001 when he approached two suspicious men 
        loitering near the construction site of his new home. The 
        fourteen-year veteran of the Rockford, Illinois Police 
        Department was shot and killed by the men he confronted.

        <bullet>  Officer Dominick J. Infantes, Jr., a seven-year 
        veteran with the Jersey City Police Department in New Jersey, 
        was attacked by two men wielding a pipe on 4 July 2001. 
        Infantes was off-duty when he asked two men to stop setting off 
        fireworks near playing children. He identified himself as a 
        police officer, but the two killers did not believe him because 
        Infantes did not have a gun. He died two days later, a newlywed 
        at the age of twenty-nine, from his injuries. More than 5,500 
        police officers, including some from as far away as Canada and 
        Ireland attended his funeral.

        <bullet>  Officer Shynelle Marie Mason, a two-year veteran with 
        the Detroit, Michigan Police Department was shot and killed on 
        14 July 2000 by a man she had previously arrested for carrying 
        a concealed weapon. She encountered the man while off-duty; he 
        confronted her and shot her several times in the chest.

        <bullet>  Correctional Officer Leslie John Besci, a sixteen-
        year veteran with the North Carolina Department of Corrections 
        was beaten to death with a baseball bat in an unprovoked 
        attack. The officer had just returned from work when he was 
        attacked by two former inmates of the prison where he worked.

        <bullet>  Corrections Officer Anthony L. Brown, a seven-year 
        veteran from Nassau County Sheriff's Department in New York, 
        broke up a fight between a man and his girlfriend while off-
        duty. The man returned later and shot and killed the officer.

        <bullet>  Officer Ralph Dols, a three-year veteran of the New 
        York City Police Department was off-duty when he was ambushed 
        in front of his home. He was attacked by three men, who shot 
        him a total of six times. The investigation into the officer's 
        murder suggests that the killing was in retaliation for the 
        officer's identification of suspects in a robbery who may have 
        had some connection to organized crime.

        <bullet>  Detective Edward Stefan Kislo, an eighteen-year 
        veteran with the Los Angeles Police Department was off-duty 
        when he confronted a prowler in a neighbor's yard. The suspect 
        shot and killed him.

        <bullet>  Officer Louis Anthony Pompei was shopping off-duty 
        when he witnessed a robbery in progress. The seven-year veteran 
        of the Glendora, California Police Department was shot and 
        killed while attempting to stop the robbery.

        <bullet>  Officer Ronald Levert Richardson served nine years 
        with the District of Columbia Department of Corrections. He was 
        shot and killed outside his home by suspects seeking to prevent 
        him from testifying at a drug trial.

        <bullet>  Officer Oliver Wendell Smith, Jr., of the 
        Metropolitan Police Department in Washington, D.C. was off-duty 
        when he was robbed at gunpoint. Upon discovering the victim was 
        a police officer, the robbers shot and killed him.

        <bullet>  Officer Charles Kirksey Todd, a three-year veteran of 
        the Police Department in Mayfield, Kentucky was attending a 
        wedding off-duty when one guest attacked another with a knife. 
        The officer was fatally stabbed trying to subdue the attacker.

    Law enforcement is a dangerous profession; there is no legislation, 
act of Congress or government regulation which will change this 
sobering fact. However, the adoption of H.R. 218 will, at the very 
least, give officers who do choose to carry a chance to defend 
themselves, their families and the public whenever or wherever 
criminals or terrorists choose to strike.
    I want to share with you two more examples, both with happier 
endings, to demonstrate how a tragedy was averted because of an armed, 
off-duty law enforcement officer.
    In 2000, Dennis Devitte had logged twenty years with the Las Vegas 
Police Department. He was off-duty at a sports bar late one evening 
when the establishment was attacked by three armed assailants. Two of 
the men opened fire on the crowd, and a man in a wheelchair was hit. 
Devitte did not hesitate--he pulled his tiny .25-caliber gun and, 
knowing he would have to get very close to make sure he hit his target, 
charged a man firing a .40-caliber semi-automatic. Officer Devitte got 
within one foot of the man, fired and killed the gunman. But not before 
he was shot eight times.
    The remaining two gunmen fled. All six civilians wounded in the 
assault recovered. One witness described Officer Devitte's action as 
``the most courageous thing I've ever seen.'' Officer Devitte lost six 
units of blood, his gun hand was badly damaged and his knee had to be 
entirely reconstructed with bones taken from a cadaver. And yet, he was 
back on the job six months later.
    This incredibly heroic officer was selected as the ``Police Officer 
of the Year'' by the International Association of Chiefs of Police 
(IACP) and PARADE magazine.
    That same year, the IACP and PARADE also recognized off-duty 
Officer Joseph H. Shackett of the Houston Police Department for his 
heroism. He was visiting a friend at a check-cashing store while off-
duty when the establishment was attacked by two gunmen. The robbers 
forced their way in, but Officer Shackett, who was armed, managed to 
draw his own weapon and kill them both before either gunman could fire 
at the store owner.
    Despite this clear and convincing evidence that the legislation 
would have a positive impact on public safety, the IACP is the only law 
enforcement association to oppose H.R. 218. A position which is 
somewhat ironic, given that the IACP's own ``Police Officer of the 
Year'' for 2000 and an Honorable Mention are police officers whose 
heroic acts which earned them this recognition occurred while they were 
off-duty and armed.
    In testimony before the Senate Committee on the Judiciary in July 
2003, the IACP gives four reasons for their opposition to this 
legislation, which we will rebut in turn.
    The first is a philosophical opposition to Federal legislation 
preempting State law on the carrying of concealed firearms. We 
respectfully disagree with this position--philosophical objections must 
not be permitted to trump the very real risks to the public from 
opportunistic criminals or terrorists, nor to the risks to law 
enforcement officers who are vulnerable when traveling outside their 
jurisdictions.
    The F.O.P. also maintains that this is a carefully crafted bill and 
is not, by any means, a broad preemption of State law by any means. 
Congress has the power, under the ``full faith and credit'' clause of 
the Constitution, to extend full faith and credit to police officers 
who have met the criteria to carry firearms set by one State, and make 
those credentials applicable and recognized in all States and 
territories in these United States. States and localities issue 
firearms to their police officers and set their own requirements for 
their officers in training and qualifying in the use of these weapons. 
The bill maintains the States' power to set these requirements and 
determine whether or not an active or retired officer is qualified in 
the use of the firearm, and would allow only this narrow universe of 
persons to carry their firearms when traveling outside their 
jurisdiction. We believe this is similar to the States' issuance of 
drivers' licenses--standards may differ slightly from State to State, 
but all States recognize that the drivers have been certified to 
operate a motor vehicle on public roadways. I sincerely doubt that the 
IACP has a philosophical objection to recognizing a driver's license in 
one State from a State with lower or different standards for their 
drivers.
    The IACP frets that law enforcement executives which have very 
rigorous standards for qualification will be ``forced to permit 
officers who may not meet those standards to carry a concealed weapon 
in his or her jurisdiction.'' \1\ The IACP should more closely analyze 
the information contained in the Reciprocity Handbook, a document 
prepared by the International Association of Directors of Law 
Enforcement Standards and Training (IADLEST), which consolidates 
information gathered from all fifty (50) State peace officer standards 
and training organizations (POST Agencies) and the United States Bureau 
of Indian Affairs. The Reciprocity Handbook shows that the training 
standards on the use of firearms are very similar and do not ``vary 
significantly,'' \2\ as the IACP has claimed.
---------------------------------------------------------------------------
    \1\ Written Statement of Colonel Lonnie J. Westphal, Chief, 
Colorado State Patrol before the U.S. Senate Committee on the 
Judiciary, 23 July 2002.
    \2\ Ibid.
---------------------------------------------------------------------------
    This legislation carefully defines who will and will not be able to 
carry under this bill. Only employees of a government agency who are or 
were authorized by law to engage in or supervise the prevention, 
detection, investigation or prosecution of, or the incarceration of any 
person for, any violation of law, and have or had statutory powers of 
arrest will be able to carry their firearms if this legislation is 
enacted. Active officers must be authorized to carry a firearm and meet 
the standards established by the agency which require the employee to 
regularly qualify in the use of a firearm, and retired officers must 
have retired in good standing from a government agency with a 
nonforfeitable right to benefits under the retirement plan of the 
agency in order to be considered ``qualified.'' In addition, retired 
officers who wish to carry under this bill must requalify with their 
firearm at their own expense every twelve (12) months and meet the 
standards for training and qualification to carry a firearm in the 
State in which they reside.
    Mr. Chairman, these are individuals who have been trained and 
entrusted by their communities with the use of firearms for the public 
good who chose law enforcement as their profession, not a hobby. These 
men and women are more than qualified and more than worthy of the 
measured extension of the trust that this legislation would provide.
    I have also heard the so-called ``States' rights'' objections from 
some lawmakers here on the Hill. Frankly, Mr. Chairman, this claim 
doesn't hold water. As mentioned previously, not only does Congress 
have the authority under the ``full faith and credit'' clause of the 
Constitution, Congress has acted to force States to recognize permits 
to carry issued by other States on the basis of employment in other, 
and, in my opinion, less worthy, instances. In June of 1993, the Senate 
and House approved PL 103-55, the ``Armored Car Industry Reciprocity 
Act.'' This legislation mandated reciprocity for weapons licenses 
issued to armored car company crew members among States (including the 
District of Columbia). In its final form, the bill passed both the 
House and the Senate by voice vote. Congress amended the Act in 1998, 
providing that the licenses must be renewed every two years.
    This precedent allows armored car guards--who do not have nearly 
the same level of training and qualifications as law enforcement 
officers--to receive a license to carry a firearm in one State and 
forces other States to recognize its validity. Mr. Chairman, if 
Congress sees fit to stretch the elasticity of the commerce clause to 
mandate that private guards who obtain firearms licenses should have 
those licenses recognized in all States, why does it balk at extending 
that same authority to fully-sworn, fully-trained and government-
employed law enforcement officers?
    Similarly, in its debate on homeland security during the 107th 
Congress, both the House and Senate overwhelmingly passed legislation 
deputizing airline pilots and granting them an exemption to State 
prohibitions on the carrying of firearms. The House adopted H.R. 4635, 
the ``Arming Pilots Against Terrorism Act,'' on 10 July 2002 by a vote 
of 310-113 (Roll Call Vote #292) and, on 5 September 2002, the Senate 
adopted Senate Amendment No. 4492, the ``Arming Pilots Against 
Terrorism Act and Cabin Defense Act,'' which passed on an 87-6 vote and 
was ultimately incorporated into H.R. 5005 (now PL 107-296).
    Contrary to popular opinion, airline pilots who complete the 
Federal flight deck officer program are not limited to carrying their 
firearms only aboard their aircraft. According to the statute, they are 
exempt from State law with respect to prohibitions on the carrying of 
firearms, per Section 44912 to Subchapter I of chapter 449 of title 49, 
United States Code, which reads in part: ``(f)(2) PREEMPTION--
Notwithstanding any other provision of Federal or State law, a Federal 
flight deck officer, whenever necessary to participate in the program, 
may carry a firearm in any State and from 1 State to another State.''
    This is yet another Federal preemption that grants a certain class 
of persons--based on the nature of their employment and risks inherent 
to that employment--the authority to carry firearms in all States. Mr. 
Chairman, in an emergency situation, I would want a pilot in control of 
the aircraft, not a law enforcement officer. Similarly, I believe that 
most people would prefer a law enforcement officer over a pilot in any 
emergency situation involving firearms. No matter how many weeks a 
pilot spends training with a gun, it will not equal the experience and 
training of a fully-sworn and fully-trained law enforcement officer.
    Another objection raised by the IACP and others is that such 
legislation would jeopardize the lives of officers who might mistake a 
fellow officer from outside the jurisdiction for an armed assailant. 
There have been and will be incidents of friendly fire--police who, 
tragically, mistakenly shoot a fellow officer. These incidents are 
tragedies, just like training accidents or other accidental injuries or 
deaths. You cannot legislate against tragedy. Police officers are in 
far more danger from vengeful, armed assailants than from their fellow 
officers and the latter is the only issue that we can address with 
legislation.
    Thirdly, the IACP maintains that the bill would do little to 
improve the safety of our communities. I submit that 11 September 2001 
dispensed with that argument.
    Finally, the IACP erects the straw man of liability--that the 
departments are financially at risk if an off-duty officer is involved 
in an incident outside his home jurisdiction. First of all, an off-duty 
officer who elects to carry his or her firearm when traveling is liable 
for his own actions, not the department which employs him or her. 
Secondly, the chiefs should remember, if they can, that police officers 
are trained how and when to use firearms and the proper method of 
escalating force in the variety of situations which may confront them. 
Most police officers will serve their entire careers without ever 
having drawn their firearm in the line of duty, so there is no reason 
to think, as the IACP intimates, that the nation will suddenly be 
overrun by out-of-control vacation cops drawing guns on jaywalkers. It 
is irresponsible to portray their officers in that way.
    Lastly, I would note that Congress found a means by which to 
inoculate pilots who choose to carry from liability with respect to 
their actions, and they will not have had nearly the same level of 
training and experience as a fully sworn law enforcement officer. If 
this were a legitimate concern, I feel confident that agreeable 
language insulating the employing agency would have already been 
crafted.
    Another objection we often hear expressed is with respect to the 
provision covering retirees. We believe that requiring retired officers 
to meet the same standards as active officers in their State, which 
this bill does, sufficiently addresses this concern.
    I am often asked by opponents of concealed carry authority for law 
enforcement officers why this is not a States' rights issue. The simple 
answer is that, in this instance, it is the variety of State laws that 
make Federal legislation necessary. The bewildering patchwork of 
concealed carry laws in the States and other jurisdictions often 
results in a paradox for law enforcement officers--local, State, and 
Federal--and can put them in legal jeopardy.
    States and localities issue their police officers firearms to 
perform their jobs. Each State and local jurisdiction sets their own 
requirements for their officers in training and qualifying in the use 
of these weapons for both their own safety and the public's. This 
legislation maintains the States' power to set these requirements and 
determine whether or not an officer or retired officer is qualified in 
the use of the firearm, and exempts those qualified officers from local 
and State statutes prohibiting the carrying of concealed weapons when 
those officers are off-duty or retired.
    The aim of the bill--allowing qualified active and retired law 
enforcement officers to carry their firearms outside their own 
jurisdiction is not a controversial position. With the exception of the 
IACP, this legislation has widespread, bipartisan support throughout 
the law enforcement community.
    It is my understanding that this Subcommittee will be marking up 
this legislation following this afternoon's hearing and may consider an 
amendment in the nature of a substitute. At this time, the F.O.P. has 
not seen or reviewed this amendment, but we do oppose any legislative 
language that would prevent or delay the provisions of this bill from 
taking immediate effect and any provisions which would enable States to 
``opt out'' of compliance. We see no need for any amendments to a piece 
of legislation which has two hundred and ninety-two (292) cosponsors--a 
two-thirds majority of the House of Representatives. This total 
includes eleven (11) of the thirteen (13) members of this Subcommittee, 
all of whom have cosponsored this legislation as introduced. Just a few 
years ago, the House passed an amendment identical to H.R. 218 by an 
overwhelming vote of 372-53.
    In the Senate, the companion bill to H.R. 218 has sixty-nine (69) 
cosponsors--a filibuster-proof majority. Just three months ago, in 
March, the Senate considered an amendment identical to H.R. 218 and 
approved it on a 91-8 vote. Congress recognizes the merits of this 
legislation.
    Mr. Chairman and members of this Subcommittee, it is an 
increasingly dangerous world that the men and women wearing the badge 
are asked to patrol. The level and degree of violence in the crimes 
being committed is becoming almost incomprehensible in terms of sheer 
brutality. Even more striking is the lack of remorse with which this 
violence is committed. Law enforcement officers are targets--in uniform 
and out; on duty and off; active or retired. We need the ability to 
defend ourselves against the very criminals that we pursue as part of 
our sworn duty, because the dangers inherent to police work do not end 
with our shift.
    Perhaps the strongest endorsement I can give you for this 
legislation is that thousands of violent criminals will hate to see it 
pass.
    Mr. Chairman, thank you for the opportunity to testify before you 
and the Committee today on this issue. I would be pleased to answer any 
questions you might have.

    Mr. Coble. We have been joined by the gentleman from 
California and the gentleman from Ohio. The gentlelady from 
Texas was here, but she will probably reappear.
    Gentlemen, we try to comply with the 5-minute rule against 
ourselves, as well, so if you could keep your answers succinct, 
it will enable us to move along.
    Mr. Eisenberg, we've seen circumstances where officers are 
sued for excessive use of force. Who would be liable if an 
officer used excessive force off-duty outside of his 
jurisdiction? I realize this is a hypothetical, but what's your 
best response to that?
    Mr. Eisenberg. Well, not being an attorney, I would have to 
take a guess, but my sense is a police officer is subject to 
the same laws as everybody else. If he or she is on duty, they 
have to follow the specific protocols, practices, training 
demands, et cetera that apply to them under which they operate. 
However, if they are using excessive force in a situation where 
they are off duty, you might--I want to be careful here--you 
might consider that to be a form of citizen arrest except they 
have certain qualifications and know the certain 
responsibilities that an average citizen would not.
    Mr. Coble. Mr. Johnson--thank you, Mr. Eisenberg.
    Mr. Johnson, according to your testimony, H.R. 218 requires 
that officers must be in good standing to carry their firearm 
and retired officers would be required to pass the same 
firearms training as active duty officers. Elaborate on this 
point, if you will, and explain how States would verify that an 
officer is in good standing and current on firearms 
qualifications.
    Mr. Johnson. Yes, Mr. Chairman. From reviewing the language 
of H.R. 218, I think there's two points. One is that, 
addressing the States' rights issue which some opponents have 
raised, the language of the proposed bill itself indicates that 
it's the standards established by the agency and established--
the standards established by the State within which the 
officer's employing agency is located which sets the firearms 
standards regarding training and requalification with which 
that officer has to comply.
    Similarly, in section 3 of the proposed bill regarding 
retired law enforcement officers, I believe it is in paragraph 
C(5) it talks about, for a retired law enforcement officer, 
among other requirements to lawfully carry a concealed firearm, 
that during the most recent 12-month period, he or she has met, 
at the expense of the individual, again, the State's standards, 
that particular State's standards for training and 
qualification for active law enforcement officers.
    So I believe that the concern regarding both States' rights 
is adequately addressed in the legislation and that there is no 
Federal intrusion on States setting their own qualifications, 
and both active and retired law enforcement officers are 
required to maintain that qualification.
    Mr. Coble. Thank you, Mr. Johnson.
    Superintendent Ruecker, to your knowledge, are there States 
that currently do not allow off-duty or retired police officers 
in their own State to carry concealed weapons?
    Mr. Ruecker. Yes, sir. Yes, Mr. Chairman, there are States 
that do not allow that, the State of Oregon being one.
    Mr. Scott. Was the question within their own State? Was 
that the question?
    Mr. Coble. Yes, in their own State.
    Mr. Ruecker. Oh, to that, I cannot--I do not know, Mr. 
Chairman.
    Mr. Coble. Okay. You thought I was referring to out of 
State?
    Mr. Ruecker. People coming to our State.
    Mr. Coble. Yes, okay. Yes. No, I meant within your own 
State. To your knowledge, furthermore, Superintendent, are 
there States that currently allow off-duty law enforcement 
officers from another State to carry concealed weapons within 
that State?
    Mr. Ruecker. Mr. Chairman, I have heard that that is the 
case. I do not know any specific State, but it's my 
understanding there are.
    Mr. Coble. Mr. Canterbury, do you happen to know?
    Mr. Canterbury. There are a number of States that do. I 
couldn't give you a list of them at the current time. We could 
provide that, Mr. Chairman.
    Mr. Coble. All right, sir.
    Mr. Canterbury. But there's a number of them that do have a 
reciprocity with concealed weapons permit carry.
    Mr. Coble. Thank you, sir. Mr. Canterbury, let me ask you 
this. Mr. Ruecker has testified that policies regarding law 
enforcement officers carrying weapons off duty, use of force 
policies, and firearms training standards vary from 
jurisdiction to jurisdiction, and, of course, that's true. How 
do you respond to that?
    Mr. Canterbury. I would respond to that by saying that 
there are still in the majority of the States a reciprocity for 
accepting the qualifications of another officer transferring to 
that State. Most of the time when you attend the police academy 
of another State and you are an out-of-State certified officer, 
most academies, with the exception of most of the State police, 
do that with a fast-track academy where they learn that State 
law.
    But there is--the national average would be a minimum of 48 
hours of firearms training at the basic academies in the 
country and the average minimum score for qualification in the 
country is 77 percentile, and that's an average across the 
board, with the lowest being 70 percent.
    Mr. Coble. I thank you, sir. I see my time has expired. The 
gentleman from Virginia?
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Canterbury, did I understand you on your example to 
suggest that an off-duty police officer within his own 
jurisdiction would be affected by this legislation?
    Mr. Canterbury. No, sir. It was just an example of another 
off-duty officer that was killed in the line of duty. I have a 
number of examples----
    Mr. Scott. Was that within the jurisdiction that he worked 
in?
    Mr. Canterbury. That one was within the jurisdiction.
    Mr. Scott. Now, would this bill require local jurisdictions 
to allow off-duty police officers to carry firearms while they 
are off duty, even within their jurisdiction?
    Mr. Canterbury. I believe it would grant the right. I don't 
believe it would mandate.
    Mr. Scott. Grant the right. Would the police officer have 
the right to carry a firearm, notwithstanding the local 
jurisdiction's decision otherwise, to carry a firearm within 
the jurisdiction?
    Mr. Canterbury. Yes, I believe it would.
    Mr. Scott. Okay. People are mentioning standards and the 
percentages. Do any of these rural police departments or 
sheriffs' offices have virtually no standards, no training?
    Mr. Canterbury. I believe at this time, all 50 States have 
a Statewide standard. I don't believe there's any States 
without standards. We have a State minimum standard now.
    Mr. Scott. Well, this isn't just for the police and 
sheriff. You've got all kinds of stuff in here, corrections 
and--I mean, it's just not--probation, parole, judicial, all 
kinds of stuff in here. It's just not your police officers and 
sheriffs. Mr. Johnson?
    Mr. Johnson. Yes, sir. However, the language of H.R. 218 
indicates that to be a qualified law enforcement officer, it 
has to be someone who is already authorized by their agency to 
carry a firearm. So----
    Mr. Scott. So a Game and Inland Fisheries officer in 
Virginia can carry a firearm and so they would be able to go to 
New York City with a firearm, concealed weapon?
    Mr. Johnson. Yes, sir. If in the Commonwealth of Virginia 
they meet the qualifications under the law, then they would 
enjoy the right to carry one. I would ask permission just to 
point out, though, the bill only authorizes an officer to carry 
the firearm. It does nothing--it doesn't deputize anyone. It 
doesn't make a police officer someplace else. It doesn't 
authorize someone to use it. All the regular rules of self-
defense and the laws of----
    Mr. Scott. In all due respect, you like to have these 
discussions before somebody gets shot, because after they get 
shot, the criminal justice system really isn't a good--isn't 
much help.
    Different areas have different standards of training. If in 
the situation that Mr. Eisenberg suggested, where you go into 
another jurisdiction and get into a liability situation, whose 
standard for duty of care will be the measure? Is it the duty 
of care in New York City where you are, or Charles City County 
from whence you came?
    Mr. Johnson. I think--my opinion--we're talking about duty 
of care and violation, if you're talking about a negligence 
case----
    Mr. Scott. Right.
    Mr. Johnson [continuing]. That would be determined by the 
law of the jurisdiction where the act occurred.
    Mr. Scott. And so if the person was not trained pursuant to 
the standard of care that he is going to be judged by, you're 
asking for trouble.
    Mr. Johnson. I believe that the person would be judged by 
the negligence standard in that local jurisdiction that would 
apply to other citizens----
    Mr. Scott. So if someone came out of Charles City County, 
Virginia, a jurisdiction population 6,000, ended up in New York 
City where they have, obviously, much better training, they 
would be judged in their action or in their decision by the 
standard for New York City, not Charles City County where he 
was trained?
    Mr. Johnson. I believe that's a correct statement of the 
tort law, yes, sir.
    Mr. Scott. Okay. How would--if a drug deal goes bad, how 
would a police officer from out of town know which was the 
undercover agent and which was the crook?
    Mr. Johnson. I think that any officer, any person may or 
may not know in a given situation who's who and that every 
officer in every department that I'm aware of, the officers' 
basic--most basic training is you don't shoot at what you 
think. You fire as an absolute last resort, only at what you 
know. That type of situation that you're talking about there--
--
    Mr. Scott. You have a person aiming a firearm at somebody. 
How do you know whether it's the undercover agent looking at 
the crook or the crook looking at the undercover agent?
    Mr. Canterbury. Congressman, I believe the answer to that 
would be, in a department of 40,000 people in the City of New 
York, they wouldn't know either. It's police training, firearms 
training, and I think the misnomer here is that this authorizes 
the officers the right to carry. They're not going into other 
jurisdictions to work. This would be a situation of last resort 
for the purpose of saving a life. When an EMT crosses a State 
line, he doesn't leave his CPR skills in the next city, and the 
standards for CPR are different in every State.
    So I would think that you're talking about a last resort 
scenario where an officer is either protecting his own life or 
the life of a citizen, and with minimum standard training 
around the country, it would be far fetched for an officer to 
get involved in a situation that--a normal police situation. 
They just would not get involved.
    Mr. Coble. Thank you, Mr. Scott.
    Ms. Jackson Lee. Mr. Chairman?
    Mr. Coble. I believe the gentleman from Virginia----
    Ms. Jackson Lee. Can I just yield for a moment? I'm 
departing from the hearing and I wanted to offer my apologies, 
Mr. Chairman, because I'm very interested in this hearing. I 
have a meeting with President Karzai of Afghanistan starting 
right now and I apologize. I know that's far away from the 
United States, but I'm very interested in this issue and met 
with a number of individuals and would like to work with you 
all on it and just would say that if we can work through the 
issue of liability, I would appreciate it, if we have 
discussions. But I'm going to beg the pardon of the Chairman 
and the Ranking Member and I thank you so very much for holding 
this hearing.
    Mr. Coble. You are indeed excused.
    Ms. Jackson Lee. Thank you.
    Mr. Coble. Thank you, Ms. Jackson Lee.
    I believe the gentleman from Virginia was first in 
attendance, so I now recognize him for 5 minutes.
    Mr. Forbes. Thank you. I've got one question. I know one of 
the things that we've been concerned about in Virginia of late 
is the rise in gang activity that we've seen, and all of us 
have been very concerned. I know some of you gentlemen have 
been concerned about that.
    Secondly, one of the big things we've been concerned about 
is the countersurveillance that we have seen taking place by 
gang members. That is, when police officers go in to do 
surveillance on the gangs, the gangs turn around now and are 
doing surveillance on the police officers, finding out where 
their homes are and where their families are and those kinds of 
things, and actually our concern is coming after the police 
officers.
    If you have a police officer in Virginia, let's say, and he 
is off duty and he is in a locality that doesn't allow him to 
have a concealed weapon, or if he comes into D.C. at a shopping 
mall there, what are you doing or what can we do to protect him 
if he can't carry a weapon to protect himself, let's say from 
one of the gangs that might be coming after him or his family?
    Mr. Canterbury. At the current time, we're not protecting 
him at all, and that scenario happens inside the District and 
outside of the District very often. Recently in a road rage 
case in Maryland, a District police officer fled the scene of a 
road rage incident, called 911, and still had to defend himself 
before police could arrive. Because of a reciprocity agreement, 
he was able to do that. But if they came from outside of the 
Washington metro area, from Richmond, he probably would have 
succumbed to his wounds.
    Mr. Forbes. So basically if we don't have this legislation, 
there would be situations where that police officer would be 
exposed, have no real ability to even defend himself, is that--
--
    Mr. Canterbury. Absolutely.
    Mr. Forbes. Okay. Mr. Chairman, that was my only question. 
Thank you.
    Mr. Coble. The gentleman from California, Mr. Schiff, is 
recognized for 5 minutes.
    Mr. Schiff. Mr. Chairman, I just wanted to comment briefly 
on the bill and then yield back the balance of my time. I 
appreciate the Chairman and Ranking Member for the hearing and 
the markup and the opportunity to participate. The bill has a 
great number of cosponsors and has been long overdue to be 
brought up on the House floor.
    As the measure would permit qualified current and former 
law enforcement members to carry concealed firearms across 
jurisdiction and respond to some of the dangers encountered 
during police work and the reality that officers have to 
respond to emergency situations when they're off duty, I 
support the measure and I want to once again thank the Chairman 
and the Ranking Member for bringing up this piece of 
legislation and urge my fellow colleagues to support it, as 
well.
    I yield back the balance of my time.
    Mr. Coble. I thank the gentleman.
    I believe the gentleman from Florida, Mr. Keller, was next 
in line. You're recognized for 5 minutes.
    Mr. Keller. Well, thank you, Mr. Chairman. Just a brief 
statement about this legislation. I think this is a very common 
sense piece of legislation that will likely pass both Houses of 
Congress with more than a 90 percent approval rate. There are 
some, however, it's been suggested at this hearing, and it may 
be offered a little bit later at the markup, that say we should 
have some sort of opt-out amendment which is being proposed in 
the name of States' rights.
    I certainly don't question or doubt the motives of those 
who make that argument. You can make it with a straight face. 
But I would just say that that argument, and if there is an 
amendment, would essentially gut the bill and give us the same 
inconsistent patchwork of coverage that exists today, and let 
me give you an example.
    If a law enforcement officer from my hometown of Orlando, 
Florida, decided to take his family on vacation to Washington, 
D.C., to see the monuments, he would have to go through six 
separate jurisdictions--Florida, Georgia, South Carolina, North 
Carolina, Virginia, D.C. How odd it would be if, as he's 
driving through Florida, which is legal, he gets to Georgia and 
they decide to opt out, now he's not allowed to have the gun in 
the car. Then he gets to South Carolina. That's legal. Then he 
gets to North Carolina. Now he's violating the law because 
they've opted out. Then he gets to Virginia and that's legal. 
Then he gets to D.C. and they've opted out. It just--it's a 
very inconsistent, nonsensical patchwork that really needs to 
be fixed.
    Cops, by the nature of their job, like physicians, are 
always on duty. If a doctor was making that same trip with his 
family, from Orlando to D.C., and he were to encounter a 
roadside accident and people who need help, wouldn't it be odd 
if he said, well, I'm sorry. You need CPR but you're in Georgia 
here and I can't do any medical techniques or do CPR here. If 
you were in South Carolina, I would save your life. It just 
wouldn't make sense.
    That's why this bill is so attractive to so many people on 
both sides of the aisle. It's a common sense piece of 
legislation. Of course, if pilots are allowed to have guns, a 
licensed law enforcement officer should be allowed to have a 
gun to protect himself, his family, and the people he's around.
    So I congratulate Congressman Cunningham for sticking this 
out. It's been said that this bill is on a fast track. Well, 
this is the slowest fast track I've ever seen in history. 
Nevertheless, he's been very persistent and he's stuck with it 
and I look forward to supporting this bill and I'll urge my 
colleagues to do the same.
    Mr. Chairman, I yield back.
    Mr. Coble. I thank the gentleman.
    I believe the gentleman from Indiana was next in line, 
recognized for 5 minutes.
    Mr. Pence. I thank the Chairman for yielding and I wish to 
thank the Chairman for having this hearing and markup on what I 
would associate with Mr. Keller's remarks as a very attractive 
piece of legislation.
    But I do respect the service represented by this panel. My 
father's brother was on the job in the City of Chicago for 25 
years, so I have some experience in my immediate family with 
families that wait every day at dinner for people to come home. 
And I have a very soft spot in my heart for the law enforcement 
community and for police officers in general.
    It's what drives me to think that we would contribute to 
public safety if we moved forward on this legislation. I am 
someone who believes that firearms in the hands of law-abiding 
citizens make for safer communities and I think I believe 
that's even doubly true when it comes to police officers, even 
off duty.
    A couple of technical questions, mostly for Mr. Canterbury. 
In your testimony, you state that the Full Faith and Credit 
Clause of the Constitution allows Congress to preempt State 
laws with regard to carrying of concealed weapons by police 
officers. Would you support legislation which has been 
supported by some Members of this Committee to allow all 
citizens to carry concealed weapons in any State if they met 
their own State's qualifications for a concealed weapon? If so, 
why? If not, why not, and is it--does it reflect some of the 
bias that I just spoke to with regard to law enforcement 
officers?
    Mr. Canterbury. As an organization, we have not taken a 
stand on concealed carry by citizens. The major purpose for 
that is that we believe that the current legislation, the 
reciprocity agreements that are in existence have not proven to 
be a problem. And so in the last number of years, probably the 
last eight, we have been concentrating solely on the effort of 
law enforcement officers to carry off duty to protect our 
family and fellow citizens and the organization has actually 
not taken a proactive role either way----
    Mr. Pence. Okay.
    Mr. Canterbury [continuing]. In concealed carry by 
citizens.
    Mr. Pence. Let me ask you one other question, if I may. 
This legislation would make it legal for anyone defined as a 
law enforcement officer to carry a concealed weapon in any 
State. This really is an honest question for me. Does that--I 
assume that term would be defined on a State-by-State basis. 
Does that definition vary widely from State to State?
    Mr. Canterbury. It does vary from State to State, but I 
believe the wording of the Federal legislation provides enough 
fail-safe to make sure that they have to meet the State 
standards for whatever a law enforcement officer is in that 
State. In the last 10 to 12 years, that has been so much more 
standardized than it used to be that a number of States, and 
I'm sure that most of you are familiar with the recruiting 
efforts in law enforcement have been very tough in the last few 
years, so almost every State has developed some sort of lateral 
transfer of certified police officers and that definitely 
demonstrates that there has been a heightening of the training 
standards. So I don't believe that would actually be a problem.
    Mr. Pence. Would the term ``certified police officers'' be 
a more contemporary term of art? Would it be a more specific 
term that the Committee should consider in the way of----
    Mr. Canterbury. I believe the current language is 
sufficient, Congressman.
    Mr. Pence. That response----
    Mr. Johnson. Yes, sir. I believe in the proposed section 
926(b), paragraph C does contain a definition for the term 
``qualified law enforcement officer,'' which I think does 
address the issues that you've raised and the concerns that 
opponents may have regarding the bill. I think that it's broad 
enough to encompass those officers who are well qualified and 
trained. At the same time, there are sufficient safeguards to 
assure that people, for example, who are not allowed under 
Federal law to receive any firearm cannot take advantage of 
this as a loophole, for example.
    Mr. Pence. It seems to me that the benefit of this 
legislation, in my judgment, has to do with this specific 
application of it to individuals who have worn the uniform in a 
way that is reflective of public service. The Superintendent 
had a comment.
    Mr. Ruecker. Yes, thank you. I think that there are in the 
main, in the mainstream definition of what we would all think 
about when we think of certified police officers, you're not 
likely to have a lot of problems. It's in the exceptions and in 
the variations from State to State on what does that mean where 
you're going to see someone with an extremely narrow law 
enforcement purpose, or an authorization at home being covered 
under this bill when I suspect none of the panelists here, or 
most of us would not, nor would the Committee think that's what 
they had intended.
    Mr. Pence. Mr. Eisenberg, please.
    Mr. Eisenberg. Thank you. My concern is that if you pass 
the bill as written, that it would place people in civil and 
legal jeopardy in a number of circumstances. And so I ask the 
Committee that if you proceed with this bill, that you find 
ways to solve the liability problem and the civil liability 
problem and the problem that occurs when somebody may find 
themselves responding to an event that anybody, certainly a law 
enforcement officer, would and should respond to.
    But there's another liability issue here, a legal one, not 
just a civil one, and that is when they might end up committing 
a misdemeanor or even a felony because they don't know the 
rules, protocols, or laws of the State while they are carrying 
that weapon. Now, if there's some kind of reciprocity, if 
there's some kind of additional standards, if there's some way 
to protect these law enforcement officers from stepping into 
something they don't want to step in because they don't know, 
then the bill will be better.
    I still have problems with the bill, but please do 
something to deal with the civil liability and the potential 
for getting into more serious trouble simply because they 
respond to an incident and don't know legally what they're 
getting into.
    Mr. Pence. I thank the Chairman.
    Mr. Coble. I thank the gentleman.
    The gentleman from Florida, Mr. Feeney, is recognized for 5 
minutes.
    Mr. Feeney. Thank you, Mr. Chairman and members of the 
panel. One of the concerns, Mr. Canterbury, you sort of touched 
on in your speech, and that is with respect to the 
requirements, the qualifications and the certification 
requirements for police officers to be able to carry weapons, 
and the suggestion was that some local jurisdictions may have 
very lax or unfortunate standards. But isn't it true in most 
States that local jurisdictions use State certification boards 
for their minimum standards and then they build upon those 
where they deem appropriate and have, if anything, higher 
requirements at their local levels than the State tends to 
have?
    Mr. Canterbury. I would say that's an accurate statement, 
Congressman.
    Mr. Feeney. One of the legitimate concerns raised by Mr. 
Eisenberg is the liability issue to the agency that does the--
basically grants the original certification which is 
subsequently used in an outside jurisdiction, and then, of 
course, the potential liability to individual members of the 
traveling public.
    But isn't it true, Mr. Eisenberg, with respect to the 
officers that happen to carry a weapon with them, they're duty 
bound to know the law even though the law is so complex in the 
5,000 local jurisdictions and 50 States, and then you've got 
the Federal Government. It is true when we travel we're all 
sort of bound under legal theory to know the law even though 
the law is unknowable in its current form.
    Mr. Eisenberg. But they are acting as if they are on duty 
when they are not legally on duty, and you end up with a 
potential civil liability, again, that goes both to the 
jurisdiction that issued the firearm to begin with and 
potentially to the law enforcement official who has stepped 
over the bounds. And then again, you've got that misdemeanor 
felony, this legal issue that hangs there if they respond and 
don't know that you can't hit somebody with a baton more than 
X-number of times in this State, but you can in that State.
    Mr. Feeney. Well, I grant your point, but I would suggest 
to you there are probably local jurisdictions and maybe places 
in California, for example, where carrying an aerosol spray can 
can have you civilly liable or for a misdemeanor. So the fact 
of the matter is, the law has become so complex that people 
that do undertake to carry these weapons are going to have to 
engage in a very cautious manner.
    And with respect to the underlying agencies, I think that 
you also raise a legitimate concern. But other than--because 
these officers are not being deputized in one State to travel 
to another jurisdiction to fight crime. What, in fact, is 
happening is the only theory of liability I'm aware of that you 
could hold the underlying agency that certified the officer 
that then makes his or her own decision to travel with a 
weapon, the only theories I can think of are agency, and, of 
course, there is no agency because you have not been authorized 
to do anything, or the dangerous instrumentality theory that 
the owner of a gun or a vehicle or a lawn mower may be liable, 
which every State has a different standard.
    Mr. Eisenberg. Not to belabor this, except--I agree with 
you and I think your points are well taken. The only thing I 
would add to that is that would a law enforcement officer in 
another State, bound by those laws, he or she may be committing 
an act for which they could be sued. And all I suggest to the 
panel, knowing that this legislation has substantial support 
behind it, is to think hard and think well about how to address 
these particular issues.
    Mr. Feeney. I think it's a good suggestion that we maybe 
have some time to think about. I just want to say, because I 
don't know whether--how far we'll get today with some of the 
agendas we have over in the House and other events going on, 
but I will tell you, I have no doubt that there are a lot of 
local policy officials that would like to opt out of this 
clause, and this is the first time I've ever lived in 
Washington, D.C. I know they have similar gun restriction laws 
as New York City. They also have some of the highest rates of 
violent crime traditionally.
    When I went to my dry cleaners today, they hand out a sheet 
with all of the local violent crimes that have been committed 
within a five-block area of my neighborhood. It looks like a 
nuclear black cloud. I know of places in Florida, where there 
are more guns than there are people, and people leave their 
door windows open to their car, the keys in the ignition, all 
the windows to their house open because they have no crime.
    And I would suggest to you that the most efficient tax way 
you can possibly protect your locality is to have an unknowable 
amount of current and former police officers all over the place 
so that every would-be criminal and every would-be terrorist 
has to guess who is current or former active duty and who may 
be armed. I think it has a great deterrent potential, and I 
happen to be totally in favor of the bill. Thank you for your 
testimony.
    Mr. Coble. I thank the gentleman from Florida.
    The gentleman from Virginia is recognized, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. If I might, I'd----
    Mr. Coble. Strike that, Bob. I think I owe an apology to 
Mr. Chabot, the gentleman from Ohio, I think preceded you here, 
Mr. Goodlatte.
    Mr. Goodlatte. Yes, I was hoping that----
    Mr. Coble. I apologize. Mr. Chabot, you are recognized for 
5 minutes.
    Mr. Chabot. I'd be happy to yield if the gentleman would 
like to ask questions, but if not--okay. I just have a couple 
and many of the questions that I would have had have already 
been asked, and I apologize because I had some constituents in 
the back room so wasn't here the entire time, but just a couple 
of questions, and these, again, may have been responded to.
    But there was some implication in some of the questions 
that were asked about the standards perhaps in a community 
where they only have 6,000 people being inferior to, say, New 
York City or some other larger community. I don't believe 
that's necessarily the case. I think, as was mentioned, there 
are minimum standards in police departments all over the 
country. But if somebody could just address that particular 
issue about standards nowadays. I'm not talking 50 years ago. 
I'm talking about the actual standards in the real world 
nowadays in communities all over the country, irregardless of 
the size of that particular community. Could somebody talk that 
issue, and I'd be happy to hear from anyone. Mr. Johnson?
    Mr. Johnson. Yes, sir. I worked for a small police 
department in Maine that maybe had eight people year-round. 
They'd hire extra people as needed, maybe 5,000 people. But 
there, even in a very small community, we were subject to very 
strictly enforced State guidelines and my understanding is that 
every single State mandates, particularly with the use of force 
and particularly with regard to firearms, adherence to State-
level and State-enforced rules for the carrying and use of 
deadly force by all officers, and it was drilled into us 
regardless of the size we were that the number one duty we had 
as a law enforcement officer, the very first duty was to 
enforce the Constitution, and that included avoiding deadly 
force.
    Supreme Court cases that dealt with liability to officers 
and to their employing agencies were very carefully gone over. 
It was absolutely understood that it was an absolute last 
resort, that we had no particular license to go out and apply 
deadly force at will, certainly nothing of the sort. It was an 
ultimate and very last ditch responsibility, to be avoided if 
we could, but to be utilized to save our life or someone else's 
life if necessary.
    And to my knowledge--I only have personal knowledge in 
Virginia, Maine, and Florida--but to my knowledge, every State 
has a similar program of instruction for all their officers. 
You must be State-certified, and part of that certification is 
knowing and following the State rules on these very subjects.
    Mr. Chabot. Okay. Any other panel member want to add 
something?
    Mr. Eisenberg. Just quickly.
    Mr. Chabot. Mr. Eisenberg?
    Mr. Eisenberg. In the situation we've talked about, you 
have a police officer who is a regular citizen in somebody 
else's State. He or she may act in protection of someone in 
trouble, but it's like the difference between a law and a 
regulation. You violate a law, there's a certain set of 
penalties that are provided. But there are also penalties for 
violating regulations and in the broad sense we're talking 
about here, if the people are not aware of the protocols and 
the, not so much the standards but the actions that they may 
take, they may step over the line. That's my concern----
    Mr. Chabot. Okay, thank you.
    Mr. Eisenberg [continuing]. As a legislator.
    Mr. Chabot. Mr. Canterbury?
    Mr. Canterbury. Congressman, with all due respect to Mr. 
Eisenberg, this is about--this is not about liability, it's 
about lives. It's about police officers' lives and citizens' 
lives and every police officer that walks a beat, as I did for 
26 years, worried about liability every day that I went to 
work. It was the buzz word 26 years ago. It was the buzz words 
when I left January 2.
    We're not going into the jurisdictions looking to fight 
crime. We're going into jurisdictions to live our lives, go to 
the dry cleaners and pick up our laundry and go home. But if we 
are confronted with an armed combatant or the dry cleaner is 
being robbed when I get there, as a trained professional, I 
want the ability to be able to save the dry cleaner's life or 
my life.
    Mr. Chabot. Thank you very much.
    Mr. Chairman, I note that the yellow light is already 
illuminated, so rather than ask another question, I'll yield 
back the balance of my time. Thank you.
    Mr. Coble. The gentleman from Virginia is recognized for 5 
minutes--the other gentleman from Virginia.
    Mr. Goodlatte. Yes, it's working, it's just the light 
burned out. Your questions were so intense, the light burned 
out. [Laughter.]
    I guess in response to this question about whether or not 
people should be worried about liability in other States, I'd 
say that people enter States by the millions every day in which 
they may be unfamiliar with a whole host of laws that might 
impose liability on them, whether that is for driving a motor 
vehicle or obeying laws relating to any kind of criminal 
activity, regarding any types of behavior that the States may 
have differing laws on.
    I wonder if each one of you would respond to that concern. 
Is there--we'll start with you, Mr. Canterbury. Is there a 
reason to draw a distinction between this constitutionally 
protected right and other types of behavior? We're going to 
exclude the guns from these States. We're certainly not going 
to pass laws or allow States to pass laws excluding the people 
from entering the other States and I wonder why we should make 
that distinction in the case of firearms for legally trained, 
professionally trained law enforcement officers.
    Mr. Canterbury. I don't think there should be a 
distinction. When I enter the State, the Commonwealth of 
Virginia, if I was inclined to speed, my speed detector on my 
dash, or radar detector on my dash would be illegal. It would 
be a liability if I had one, and I don't know how many people 
stop at the State line and put them in the trunk. But it's the 
same thing, in our opinion--and I agree with you that any 
jurisdiction, the neighboring city that for me has laws that 
I'm not familiar with, but I'm allowed to carry in that 
jurisdiction. I just do not believe that that liability 
question is any greater than any other liability with any other 
product that we would have.
    Mr. Goodlatte. Superintendent Ruecker?
    Mr. Ruecker. Thank you. I would tend to agree with you 
except that in the unique circumstance here, a firearm in the 
possession of a police officer and when used as deadly physical 
force is just for one purpose. You don't draw that weapon for 
any other reason than to shoot somebody. So the consequences 
are much greater for this particular type of circumstance than 
for other types of regulation. No one would support the notion 
of----
    Mr. Goodlatte. But aren't the consequences equally as 
severe when that officer is present in that State and faces a 
situation in which deadly force might be necessary, or at least 
removing the revolver to attempt to deter somebody from using 
deadly force themselves or to stop a crime for occurring? Isn't 
the risk just as great on the other side? Don't we take that 
risk every day with every police officer in every community in 
the country?
    Mr. Ruecker. Yes, we do. However----
    Mr. Goodlatte. And for good reason.
    Mr. Ruecker [continuing]. Persons out of their 
jurisdiction, far out--the problem associated with this is that 
that officer is only going to have one tool available to them, 
no communications, no other resources, maybe not even an 
ability to be recognized by other officers that he or she is a 
police officer, and that is what worries me. I think that there 
are a lot of things about this bill that would not be 
problematic and the IACP does not want to be perceived as 
saying otherwise. There are many points on which we would 
agree.
    But I and we are very concerned about the unintended 
negative consequences that could come from this. It's almost a 
certainty that some police officer or somebody and their family 
is going to get killed as a result of the passage of this bill 
as not. Certainly----
    Mr. Goodlatte. But don't you think that there are going to 
be plenty of other people--I would argue there would be far 
more people whose lives would be saved, including perhaps some 
police officers, because they are able to have this weapon with 
them because they've been trained to use that weapon and that's 
the very purpose for which they carry the weapon, is to protect 
themselves and the lives of others.
    That being the case, and I certainly understand that there 
are different rules and different protocols and additional 
risks attached, but I would think they would be far outweighed 
by the benefit of having effectively additional law enforcement 
presence in areas where crimes might take place.
    Mr. Ruecker. Yes, sir. My final comment would be that it's 
not about the main--to me, it's the scope. It's, you know, 
without restriction, all retirees. I don't have in my State the 
ability to sort of decertify somebody that's retired and maybe 
they haven't been a police officer for 30 years. They no longer 
know the law. I mean, certainly they know how they were trained 
in the core of their duties, but things change over time. 
People's health deteriorates. I'm not going to have any ability 
to limit that. If they can show up at the range and qualify, 
they're going to be good to go for the rest of their life. Is 
that the best policy? I'm not sure.
    Mr. Goodlatte. Thank you, Superintendent. My time is 
expired, Mr. Chairman. I don't know if you want to allow the 
other two witnesses to answer the question or not, but----
    Mr. Coble. That would be fine. Go ahead.
    Mr. Goodlatte. Mr. Johnson?
    Mr. Johnson. Yes, sir. Thank you. Regarding the Second 
Amendment concern that some folks might have, our view is----
    Mr. Coble. Mr. Johnson, if you would suspend. What was your 
question, Bob?
    Mr. Goodlatte. It was rather lengthy, but the question was 
why we should be concerned about this particular potential 
liability when people enter other States by the millions every 
day----
    Mr. Coble. Okay.
    Mr. Goodlatte [continuing]. And have all kinds of different 
liabilities that they may not be aware of when they enter those 
States----
    Mr. Coble. You may continue, Mr. Johnson.
    Mr. Goodlatte [continuing]. And wouldn't the benefit of 
having an additional law enforcement officer present outweigh 
the additional risk which certainly would be attendant to 
somebody who didn't know all the rules.
    Mr. Coble. I just didn't hear the question. Go ahead, Mr. 
Johnson.
    Mr. Johnson. Yes, sir. Thank you, Mr. Chairman. I think 
that the Congress would be extending, protecting the right that 
is included in the Second Amendment to a particularly well-
qualified group of individuals.
    Regarding the various patchwork of laws and potential 
liability across--that exists today across the United States, 
our view is that H.R. 218 helps solve that problem because it 
creates a unified Federal rule that clearly defines who may 
carry legally across the United States. We're actually helping 
to solve this problem of liability and patchwork application of 
laws that exists today by creating and allowing well-qualified 
individuals who are already authorized by their own agencies to 
carry a firearm to do so nationally.
    Just one final point. In 19--it was either 1988 or 1989 
when the State of Florida enacted legislation that allowed 
private citizens to carry a concealed firearm. There were 
predictions that this would be the Old West. People would have 
six-guns on their hip. There would be shootouts in the streets 
of Miami. It didn't happen. The type of people, like law 
enforcement officers, who play by the rules, who are well 
qualified, who undergo rigorous background checks, criminal 
checks, psychological stability checks, retraining every year, 
these are the type of people that we want out there, that we 
already trust to use good judgment in carrying a weapon, and we 
would all benefit as well as the officers themselves would 
benefit from this additional protection for the public.
    Mr. Goodlatte. Thank you.
    Mr. Coble. The gentleman's time has expired. The 
gentleman--oh, Mr. Eisenberg, do you want to respond to that?
    Mr. Eisenberg. Only very quickly. I think as the 
legislation is written, police officers are put in harm's way. 
In response to your question, a gun is different. Its 
consequences are greater than just about anything else I can 
think of in terms of the situations we're talking about, and if 
the law enforcement officers----
    Mr. Goodlatte. Mr. Eisenberg, far more people are killed 
every year with automobiles than with guns.
    Mr. Eisenberg. I understand, but we're talking here about 
something where somebody does something intentionally.
    Mr. Goodlatte. Sometimes they do them intentionally with 
automobiles.
    Mr. Eisenberg. Well, okay. People----
    Mr. Goodlatte. And there's a great debate over whether 
somebody who enters an automobile under the influence of 
various things are doing their act intentionally, but----
    Mr. Eisenberg. In this circumstance, a police officer is 
acting as if he or she were on duty. They are taking a step in 
a jurisdiction that they do not know well, with the procedures 
that they do not know well--there are certain procedures when 
you can draw your weapon, when you can fire that weapon, and 
under what circumstances. These are things that put these 
people in jeopardy if not appropriately addressed, not just 
legal, not just liability at being sued. If somebody gets sued 
and they have to pay the judgment, it can cost them quite a bit 
for the rest of their lives.
    In other cases, it's a legal liability. If you do something 
that that law says you cannot do in a State and you don't know 
about it and you pull that trigger, now you're dealing with 
misdemeanor or felony and it's a tragedy for all concerned.
    I just ask, think about this and how to fix the problem. 
I'm not saying not to do something, I'm saying think about 
those liabilities and how you will fix that problem----
    Mr. Coble. The gentleman's time has expired.
    The gentleman from Wisconsin is recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Superintendent Ruecker, and I apologize for being out of 
the room for much of the time, but I heard your testimony. I 
think you said that you think with the passage of this 
legislation, it is just as likely that a law enforcement 
officer or his family would be wounded as if a crime were to be 
thwarted or a criminal were to be apprehended. Could you 
explain that, because I'm not sure I quite follow that.
    Mr. Ruecker. Yes, sir. Certainly statistically, that would 
be a lower number of incidents. But what I'm saying is having 
police officers carrying firearms outside their jurisdiction 
and concealed, as the bill would allow, would most certainly 
produce some outcomes. But just as certainly, it would--there's 
almost a certainty that there would be accidents that wouldn't 
happen because you just have firearms around in a place where a 
person is maybe not have their usual places of storage, care, 
and retention and all that. You're in a hotel room someplace on 
vacation. You've got a firearm. You wouldn't otherwise have it 
with you.
    I'd just say that--or in some circumstance out on the 
street, somebody is going to be mistaken for a bad guy when 
they're a good guy or a good gal and someone's going to get in 
a situation that is going to go badly because people don't know 
who's who.
    Mr. Green. But that latter point is an argument against all 
concealed carry laws around the nation, not this legislation, 
correct? I mean, do you really think that suddenly allowing law 
enforcement officers going from one State to another to have 
concealed carry, that suddenly the public is going to be so 
alerted to this that they're going to wonder if every single 
person walking down the street might be packing? I mean, I----
    Mr. Ruecker. No, sir.
    Mr. Green. Right. I didn't think so.
    Let me ask this question of Mr. Johnson. Superintendent 
Ruecker's testimony, he seemed to be raising the issue of 
whether retired law enforcement would be keeping their skills 
and their training over the years. I think I heard you testify 
earlier that in order for a retired officer to be using 
concealed carry that they'd have to be in good standing. Could 
you tell me what exactly that means and what sort of training, 
what sort of practice they have to maintain?
    Mr. Johnson. Yes, sir. And I was referring to proposed 
section 926(c), subsection (c)(5), talking about retired law 
enforcement officers. Among other qualifications, one of the 
qualifications they have to have is that, quote, ``during the 
most recent 12-month period, that that officer has met, at the 
expense of the individual, the State standards for training and 
qualification for active law enforcement officers to carry 
firearms.''
    Mr. Green. So this isn't a case where someone is suddenly, 
you know, 10 years after retiring or walking away from the 
force, they've received no training, no practice, they haven't 
had to think about this or follow good practices that they're 
carrying a weapon. We're talking about someone who has had to 
have at least taken the active steps of--at his or her own 
cost--maintained his good standing----
    Mr. Johnson. Yes, sir, and has actually demonstrated that 
to the satisfaction of the agency, that they are still able to 
correctly and safely and accurately handle their firearm.
    Mr. Green. Okay, good. Mr. Chairman, I have no more 
questions.
    Mr. Coble. I thank the gentleman.
    Folks, we're about ready to go into a markup. Let me visit 
with my friend from the land of the palmetto, my neighbor to 
the South. Mr. Canterbury, this will be a friendly question 
because I'm a cosponsor of the bill, but let me play devil's 
advocate with you for a minute. In your testimony, I believe 
you said that the great majority of the States permit officers 
to carry concealed weapons back and forth. An opponent of this 
bill would say to you, well, why do we need H.R. 218 then? How 
would you respond to that?
    Mr. Canterbury. That would be in their own jurisdictions or 
in their own State. For instance, in South Carolina, I can 
carry anywhere in my State. But when I cross over into 
Brunswick County, I would be in violation of North Carolina 
law.
    Mr. Coble. I got you. Okay. Thank you, sir.
    Gentlemen, we appreciate very much you all being here. I 
thank you for your testimony. The Subcommittee appreciates this 
contribution.
    This concludes the legislative hearing on H.R. 218.
    [Pause.]
    Mr. Coble. This concludes the legislative hearing on H.R. 
218, the Law Enforcement Officers Safety Act of 2003. The 
record will remain open for 1 week, and we will now move on to 
markup of H.R. 218. We stand adjourned, and you gentlemen are 
excused. Thank you again for your attendance.
    Just be at ease for a few minutes. We'll rearrange the room 
for the markup.
    [Whereupon, at 3:35 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
Representative in Congress From the State of Texas, and Ranking Member, 
        Subcommittee on Immigration, Border Security, and Claims

    I would like to thank Chairman Coble and Ranking Member Scott for 
their efforts in holding today's legislative hearing and markup of H.R. 
218, the Law Enforcement Officers Safety Act of 2003, sponsored by Mr. 
Cunningham of California. This legislation, that proposes to allow 
qualified off-duty and retired law enforcement officers to carry 
concealed weapons in any jurisdiction, can have many beneficial effects 
in our efforts to curtail crime in our communities.
    In February, I had the opportunity to meet with several members of 
the Texas Fraternal Order of Police and the Houston Police Patrolmen's 
Union to talk about the pro's and con's of this bill. Because they made 
such a compelling case as to the benefits that it would bring to our 
crime reduction effort, I requested to become a co-sponsor.
    H.R. 218 has 296 cosponsors and is strongly supported by the Law 
Enforcement Alliance of America, the Fraternal Order of Police, the 
National Troopers Coalition, the National Association of Police 
Organizations, the International Brotherhood of Police Officers, and 
many others. In most cases, H.R. 218 is their #1 legislative priority.
    The officers who visited me discussed the fact that this 
legislation promises to bring an immediate, no-cost benefit to 
communities by simply allowing trustworthy officers to carry a 
concealed firearm full-time. Furthermore, they added that the life-
saving benefits extend to the officers as well. Unlike officers, 
criminals are ``on duty'' around the clock. Many have knowingly 
targeted police officers and their families, recognizing that the 
officer was likely to be unarmed at home.
    These advocates cited several individual cases that evidence the 
need for the Law Enforcement Officers Safety Act:
    * Only on the force one year, a quick-thinking off-duty deputy 
sheriff picking relatives up at a bus terminal killed an armed suspect 
near Orlando, Fla., this past July. After seeing the subject shoot at 
another person outside the bus station, the plainclothes deputy 
confronted the shooter who then turned his gun on the officer. Finding 
himself in a life-threatening situation, the deputy fired his gun, 
fatally wounding the man.
    * A retired officer in Long Island, N.Y., was at the right place at 
the right time when a man in a black hood decided to rob a bank in 
August. The robber waved around a realistic-looking toy gun and ordered 
the midday customers to lie on the floor. The retired officer followed 
the robber as he fled to a nearby gas station, and then attempted to 
apprehend him. Suddenly, the gunman turned his weapon on the officer. 
Left with no other option, the ex-officer shot the robber who then fled 
in a vehicle and crashed into a tree about 100 yards away; he did not 
survive.
    * An off-duty police sergeant was beaten by a Brooklyn teen armed 
with a hammer shortly after midnight this past summer. The sergeant, 
who had just used an ATM, refused to hand his money over when the thug 
decided to use force. Fortunately, the 13-year police veteran was able 
to defend himself and shot his attacker in the thigh. The sergeant was 
later treated at a local hospital and needed several stitches to close 
a wound to the head.
    * A Staten Island robber was fatally shot in the chest last year by 
an off-duty New Jersey officer. Three thugs reportedly try to rob the 
officer as he walked with a friend down the street shortly after 3 a.m. 
The officer says he felt a gun in his back as the robbers demanded 
money; then the officer spun around and responded with deadly force; 
the other two suspects fled.
    I reiterate that I generally support the spirit of this 
legislation; however, I do have an inquiry that would clarify its scope 
and identify a potentially problematic provision.
    I would like to clarify to whom liability would be assigned in the 
event that a ``qualified law enforcement officer'' or a ``qualified 
retired law enforcement officer'' acts outside the scope of his/her 
duty and commits an act of negligence in the course of enforcing the 
law.
    Subsection (d) of Section 1(page 3), line 20 requires that the 
identification carried by the officer be that which was issued by the 
government agency ``for which the individual is, or was, employed as a 
law enforcement officer.'' The ``was'' language implies (1) that the 
officer could have been terminated for an infraction of low moral 
turpitude; (2) that the identification required can be expired; (3) or 
that the officer is not required to still be employed by the issuing 
agency to exercise the right to carry and use concealed firearms. As 
such, liability for the actions of the officer would not clearly be 
assigned to the government agency. This ambiguity will cause litigation 
and could preclude the victim of an accidental or mistaken shooting 
from recovering damages for negligence or wrongful death.
    I would hope that my colleagues will clarify this area of ambiguity 
so that there can be strong support from as many Members as possible. 
In crafting legislation to empower individuals to fight crime, we must 
be very careful not to infringe the rights to remedy or any other civil 
rights of the general public. Furthermore, we must ensure that the most 
qualified individuals obtain this legal privilege.
    I thank my colleague for his hard work in drafting this bill, and I 
thank the Chairman and Ranking Member for having held this meeting.
          Letter from William J. Johnson, Executive Director, 
              National Association of Police Organizations

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Memorandum, ``H.R. 218/S. 253, the Call of Duty'' from the Grand Lodge, 
                       Fraternal Order of Police

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Law enforcement officers are a dedicated and trained body of men 
and women, who, unlike other professionals, are rarely ``off-duty.'' As 
first responders, police officers are sworn to answer the call of duty 
wherever and whenever there is a threat to the peace or to public 
safety. Given their unique role in helping to secure the homeland while 
still protecting the peace and fighting crime, the passage of H.R. 218/
S. 253 has become more than just a critical officer safety issue--it is 
now a critical public safety and homeland security issue.
    The fifty-eight (58) officers listed below appear on the Wall of 
Remembrance in Judiciary Square because they were killed in the line of 
duty. But, unlike most officers on the Wall, these officers were not 
``on-duty'' when they were killed. Yet even though they were not on the 
clock, the circumstances of their death qualified them as having died 
``in the line of duty.'' Why were those deaths considered line of duty? 
Because in each instance, the officers below were responding to a 
public safety emergency or were targetted and killed because they were 
a professional law enforcement officer.
    None of the men and women listed below were on the clock and, to 
the best of our knowledge, none were armed when they answered the call 
of duty and paid the ultimate price. If they had been armed, would they 
have lived? More than one hundred armed and uniformed officers die in 
the line of duty each year. But one thing is certain: even one life 
saved demonstrates the need for this legislation.
    Detective Thomas G. Newman, a twelve-year veteran of the Baltimore 
City Police Department in Maryland had been shot and wounded while off-
duty in 2001. He testified against his assailant, who was sentenced to 
thirty years in prison. On 23 November 2002, Detective Newman was shot 
to death by three suspects, friends and relatives of the criminal that 
Detective Newman had sent to jail, in an act of criminal retaliation.
    Police Officer Joseph Jerome Daniels, a ten-year veteran of the 
Birmingham Police Department in Alabama was shot and killed on 11 
November 2002. The officer was eating his dinner at a local restaurant 
when a man entered, announced that he was robbing the establishment and 
ordered everyone on the floor. Officer Daniels immediately took action 
and was shot several times in a struggle with the robber. He died of 
his injuries on the scene.
    Deputy Sheriff Damacio S. Montano, a three-year veteran of the 
Valencia County Sheriff's Office, was with his brother, State Patrolman 
Eric Montano, at a restaurant on 6 October 2002. They assisted the 
owner of the restaurant in breaking up a fight and escorted two 
suspects outside. An unknown gunman opened fire on the officers, 
wounding his brother and killing him.
    Detective Jaime Betancourt, a nine-year veteran of the New York 
City Police Department, was knifed to death on 31 May 2002 while 
attempting to make an off-duty arrest. The man was attempting to force 
entry into a woman's home when Detective Betancourt attempted to make 
an arrest. The attacker drew a knife and stabbed the officer to death.
    Detective Donald Miller, a ten-year veteran with the New Bern 
Police Department in North Carolina was off-duty on 23 December 2001. 
He and his wife had just completed a visit to their newborn child in 
the hospital when the detective observed a man driving recklessly 
through the hospital parking lot. He confronted the man, who drew a 
handgun and fired--striking Miller in the head. Detective Miller, 
father of two, died two days later on Christmas Day.
    Detective Kevin Darrell Rice, Sr. was off-duty on the evening of 3 
August 2001 when he approached two suspicious men loitering near the 
construction site of his new home. The fourteen-year veteran of the 
Rockford, Illinois Police Department was shot and killed by the men he 
confronted.
    Officer Dominick J. Infantes, Jr., a seven-year veteran with the 
New Jersey City Police Department, was attacked by two men wielding a 
pipe on 4 July 2001. He died two days later from severe head injuries. 
Infantes was off-duty when he asked two men to stop setting off 
fireworks near playing children. He identified himself as a police 
officer, but the two killers did not believe him because Infantes did 
not have a gun.
    Officer Jose Torres-Rodriguez, a five-year veteran with the Puerto 
Rico Police Department, was killed on 11 March 2001. He was off-duty 
when he arrived at a local restaurant. A couple there was having a 
violent argument, so he identified himself as a police officer and 
offered his assistance. The male suspect drew a handgun, fired, and 
killed the officer.
    Correctional Officer Leslie John Besci, a sixteen-year veteran with 
the North Carolina Department of Corrections was beaten to death with a 
baseball bat in an unprovoked attack. The officer had just returned 
from work when he was attacked by two former inmates of the prison 
where he worked.
    Corrections Officer Anthony L. Brown, a seven-year veteran of the 
Nassau County Sheriff's Department in New York, broke up a fight 
between a man and his girlfriend while off-duty. The man returned later 
and shot and killed the officer.
    Officer Robert Buitrago of the Winston-Salem Police Department in 
North Carolina, observed a robbery in progress while off-duty. He was 
shot and killed in an attempt to apprehend the suspect.
    Officer Ernesto Caballero-Vega, a three-year veteran with the 
Puerto Rico Police Department, was off-duty and travelling with his 
father when he witnessed an attempted car-jacking. He approached the 
criminal and identified himself as a police officer. The suspect shot 
the officer and his father to death.
    Officer Glanville Christopher-Figueroa of the Puerto Rico Police 
Department was shot and killed while attempting to stop a robbery in 
progress. He was off-duty.
    Auxiliary Officer Milton S. Clarke, a three-year veteran of the New 
York City Police Department was off-duty when he went to investigate 
gun shots from outside his home. After he identified himself as a 
police officer, he was shot and killed.
    Officer Ralph Dols, a three-year veteran of the New York City 
Police Department was off-duty when he was ambushed in front of his 
home. He was attacked by three men, who shot him a total of six times. 
The investigation into the officer's murder suggest that the killing 
was in retaliation for the officer's identification of suspects in a 
robbery who may have had some connection to organized crime.
    Officer Carlos J. Diaz-Martinez  of the Puerto Rico police 
department was off-duty when he walked into a barber shop where a 
robbery was in progress. He was shot and killed when he tried to take 
action.
    Deputy Antranik Geuvjehizian, a seven-year veteran with the Los 
Angeles County Sheriff's Department was investigating a suspicious 
person lurking around a neighbor's house while at home and off-duty. He 
was shot and killed after confronting the suspect and identifying 
himself as a law enforcement officer.
    Detective Charles Edward Harris, a twenty-year veteran with the 
Southern Pines Police Department in North Carolina was at home and off-
duty when drug suspects rang his doorbell. The suspects targeted the 
officer after he attended a ``crime watch'' meeting at an apartment 
complex. The officer was shot and killed, and his wife, home at the 
time, was also shot.
    Officer Jose Ramon Hernandez-Rodriguez, a six-year veteran with the 
Puerto Rico Police Department was shot and killed while attempting to 
prevent the robbery of himself and his family. Though off-duty and out 
of uniform, one of the suspects recognized him as a police officer and 
then shot him.
    Officer Clayton Wayne Hicks, Jr., a two-year veteran of the 
Memphis, Tennessee Police Department, was killed on 14 November 2000. 
It was his day off and he attended a party thrown by a friend. He was 
confronted there by a suspect whom he had arrested earlier on a 
domestic violence charge. The suspect shot Officer Hicks twice with an 
AK-47 assault rifle, killing him.
    Deputy Clarence Hill IV, a three-year veteran with the Harris 
County Sheriff's Department in Texas was off-duty on 19 June 2000, when 
he witnessed a shooting. He followed the suspects when they fled in 
their vehicle. When they stopped, he approached their car and 
identified himself as a police officer. The suspects seized his arm and 
dragged Deputy Hill along the pavement. A second car, driven by friends 
of the shooting suspects, intentionally struck and killed him.
    Officer Milagros T. Johnson, a two-year veteran of the New York 
City Police Department was the victim of an armed robbery while off-
duty. She identified herself as a police officer and was shot and 
killed by the suspects.
    Officer Robert L. Johnson, Jr., a police officer with Metropolitan 
Police Department in Washington, D.C. was off-duty and with another 
off-duty officer when he was involved in a parking dispute with a 
paroled offender. The pair identified themselves as police officers and 
the offender vowed to come back. He did--shooting and killing Officer 
Johnson and wounding the other officer.
    Detective Edward Stefan Kislo, an eighteen-year veteran with the 
Los Angeles Police Department, was off-duty when he confronted a 
prowler in a neighbor's yard. The suspect shot and killed him.
    Senior Corporal Richard A. Lawrence  was a twenty-two year veteran 
with the Dallas Police Department in Texas. He was off-duty when he was 
warned of two suspects lurking in the bushes near a parked car. He went 
to investigate and was ambushed and killed by the two suspects, who 
were attempting to steal the car.
    Sergeant Keith R. Levine, a six-year veteran of the New York City 
Police Department was off- duty when he observed a suspect robbing a 
man at an automatic teller machine. He was shot and killed by the 
suspect.
    Sergeant Rudy Lopes  was shot and killed on 11 October 2000. 
Sergeant Lopes, a fifteen-year veteran with the Bexar County Sheriff's 
Department in Texas was off-duty when he was robbed by two killers, who 
took his wallet and truck, bound his hands and, discovering he was a 
law enforcement officer, shot him in the head and left him in an 
abandoned building, where he was discovered the next day.
    Patrolman Michael D. Love, a five-year veteran of the Rochester 
Police Department in Pennsylvania, was off-duty when the woman he was 
dancing with at a club was shot. The officer tried to act and was shot 
and killed by the woman's assailants.
    Officer Alejo Maldonano-Serrano, a ten-year veteran of the Puerto 
Rico Police Department was off-duty when he was attacked by an 
individual whom he had arrested several months earlier. The officer was 
killed in this act of revenge.
    Detective Donald James Manning, a six-year veteran of the Fort 
Worth Police Department in Texas, was shot and killed by one of four 
suspects while off-duty in an unprovoked attack following a robbery.
    Officer Angel Luis Marquez-Rivera  of the Puerto Rico Police 
Department was off-duty and out of uniform when suspects, identifying 
him as a police officer, shot and killed him during a robbery attempt.
    Officer Johnny L. Martin, a four-year veteran with the Chicago 
Police Department in Illinois, was off-duty when he observed a 
suspicious person tampering with some cars. The suspect, once observed, 
shot and killed the officer.
    Officer Shynelle Marie Mason, a two-year veteran with the Detroit, 
Michigan Police Department, was shot and killed on 14 July 2000 by a 
man she had previously arrested for carrying a concealed weapon. She 
encountered the man while off-duty; he confronted her and shot her 
several times in the chest.
    Officer Todd Merriwether, a one-year veteran with the St. Louis 
Police Department in Missouri, was off-duty when an individual 
attempted to rob him. After identifying himself as a police officer, 
the suspect shot and killed him.
    Correctional Officer Andre Motley  in Essex County, New Jersey, was 
off-duty and on his way home when he stopped to break up a fight in his 
neighborhood. He was shot and killed by one of the brawlers.
    Sheriff Ben P. Murray  of Dimmit County, Texas, had been a law 
enforcement officer for twenty years. He was shot and killed in his 
home while off-duty by suspects with a vendetta against him.
    Patrolman James M. O'Connor  was a two year veteran with the 
Chicago Police Department in Illinois. While off-duty, he witnessed a 
robbery and pursued the fleeing suspects. They shot and killed the 
officer.
    Police Agent Santos Febus Ocasio, a fifteen-year veteran with the 
Puerto Rico Police Department was attacked, shot and killed while off-
duty because he was working on antinarcotics activities in the 
department.
    Officer Carmelo Ortiz-Rivera  was off-duty when he was shot and 
killed in front of his home by drug suspects. The officer was doing 
undercover drug work and expected to testify in court against the 
suspects who shot him.
    Sergeant Tomas Pantojas de Jesus, a 25-year veteran of the Puerto 
Rico Police Department was off-duty and at a gas station when a robbery 
occurred. He was shot and killed attempting to stop the suspects.
    Investigator Ricky J. Parsian  was an eight-year veteran with the 
New York State Police. While off-duty, the officer was shot and killed 
attempting to stop a robbery in-progress.
    Agent Lawrence B. Pierce, a 15-year veteran with the Border Patrol, 
attempted to subdue a suspect who had, within the sight of the officer, 
fatally stabbed another man. When Agent Pierce identified himself as a 
law enforcement officer, the suspected attacked and killed Pierce.
    Officer Louis Anthony Pompei  was shopping off-duty when he 
witnessed a robbery in progress. The seven-year veteran of the 
Glendora, California Police Department, was shot and killed while 
attempting to stop the robbery.
    Officer Robert Porter, a seven-year veteran with the Philadelphia 
Police Department, was killed in an ambush. While dropping off an item 
at a local tavern, his partner was confronted by several bar patrons 
whom he had previously arrested. The two officers left the tavern when 
the argument was settled and drove away. The three suspects caught up 
with the two partners, drove up to the passenger side and fired into 
the vehicle. Officer Porter, though not the intended target, was 
killed.
    Officer Ronald Levert Richardson  served nine years with the 
Washington, D.C. Department of Corrections. He was shot and killed 
outside his home by suspects seeking to prevent him from testifying at 
a drug trial.
    Officer Armando Rosario, an Auxiliary Officer with the New York 
City Police Department, interrupted a robbery in progress. He was shot 
and killed when he moved to thwart the robbers.
    Officer Carlos William Sepulveda-Caraballo, a three-year veteran 
with the Puerto Rico Police Department, attempted to intervene in a 
heated and escalating argument. He was shot and killed after 
identifying himself as a law enforcement officer.
    Officer Hilario Serrano, a six-year veteran with the New York City 
Police Department, attempted to stop a robbery in progress. He was shot 
and killed by the armed robbers.
    Officer Benjamin Louis Short, a seven-year veteran with the Police 
Department in Detroit, Michigan, was off-duty at a local bar when a 
fight broke out. He intervened after one of the brawlers drew a 
handgun, and was shot and killed by that suspect.
    Officer Oliver Wendell Smith, Jr., of the Metropolitan Police 
Department in Washington, D.C. was off-duty when he was robbed at 
gunpoint. Upon discovering the victim was a police officer, the robbers 
shot and killed him.
    Officer Deadrick Taylor, a nine-year veteran with the Sheriff's 
Department in Shelby County, Tennessee, was killed in an ambush. Four 
men, reportedly gang members directed by an inmate in the county jail 
where Taylor worked, attacked and killed the officer just outside his 
home following his shift. The men shot Officer Taylor repeatedly with 
an handgun and an AK-47 assault rifle.
    Officer Rudolph P. Thomas, Jr., a two-year veteran with the New 
York City Housing Authority Police, was shot and killed during a 
robbery attempt.
    Officer Charles Kirksey Todd, a three-year veteran of the Police 
Department in Mayfield, Kentucky was attending a wedding off-duty when 
one guest attacked another with a knife. The officer was fatally 
stabbed trying to subdue the attacker.
    Officer Joey Tremayne Vincent, a six-year veteran with the 
Greenville Kentucky Police Department, was killed on 27 June 1999. His 
mentally-ill cousin, Terry Wedding, had been involuntarily committed to 
a mental hospital by the family. Officer Vincent's parents asked him to 
accompany them while he was off-duty because they felt they might need 
a police officer and believed that Terry would feel better if he were 
with family. The trip turned into a massacre--Terry Wedding shot and 
killed Officer Vincent, his wife and parents.
    Officer Ernest Andrew Whitten, a twelve-ear veteran of the 
Albertville Police Department in Alabama, was shot and killed in his 
home because of a case he had made against the suspect.
    Corporal Amos Williams, a five-year veteran with the District of 
Columbia Department of Corrections, was confronted by two assailants 
while off-duty. He was shot once and while the criminals were patting 
him down for his wallet, they discovered his badge. They subsequently 
shot him once in the back of the head, killing him.
    Officer Thomas Bentley Worley, a Safety Police Officer in Los 
Angeles County, was shot and killed during a robbery in progress. The 
off-duty officer attempted to keep the suspect from leaving the scene 
when he was killed.
    Deputy Sheriff Shayne Daniel York, a Deputy Sheriff in Los Angeles 
County, was off-duty and unarmed at a hair salon when it was robbed by 
armed men. After seeing York's badge, the robbers shot him in the back 
of the head--execution style.
    Law enforcement is a dangerous profession; there is no legislation, 
act of Congress or government regulation which will change this 
sobering fact. However, the passage of H.R. 218/S. 253 is one of the 
most important ways to increase the level of personal safety for police 
officers and their ability to respond to public safety emergencies.

                                 <all>

</pre></body></html>
